<html>
<title> - PROTECTING OUR PASSENGERS: PERSPECTIVES ON SECURING SURFACE TRANSPORTATION IN NEW JERSEY AND NEW YORK</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


      PROTECTING OUR PASSENGERS: PERSPECTIVES ON SECURING SURFACE 
               TRANSPORTATION IN NEW JERSEY AND NEW YORK

=======================================================================

                               FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                      RESPONSE, AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 21, 2016

                               __________

                           Serial No. 114-77

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                                     
      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE                    
24-380 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4e293e210e2d3b3d3a262b223e602d212360">[email&#160;protected]</a> 
                                          
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

               Daniel M. Donovan, Jr., New York, Chairman
Tom Marino, Pennsylvania             Donald M. Payne, Jr., New Jersey
Mark Walker, North Carolina          Bonnie Watson Coleman, New Jersey
Barry Loudermilk, Georgia            Kathleen M. Rice, New York
Martha McSally, Arizona              Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry A. Kinirons, Subcommittee Staff Director
                    Kris Carlson, Subcommittee Clerk
           Moira Bergin, Minority Subcommittee Staff Director
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Daniel M. Donovan, Jr., a Representative in 
  Congress From the State of New York, and Chairman, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5

                               WITNESSES
                                Panel I

Ms. Sonya Proctor, Director, Surface Division, Office of Security 
  Policy and Industry Engagement, Transportation Security 
  Administration:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
Mr. Thomas Belfiore, Chief Security Officer, The Port Authority 
  of New York and New Jersey:
  Oral Statement.................................................    13
  Prepared Statement.............................................    16
Mr. Raymond Diaz, Director of Security, Metropolitan Transit 
  Authority:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22
Mr. Christopher Trucillo, Chief of Police, New Jersey Transit 
  Police Department:
  Oral Statement.................................................    24
  Prepared Statement.............................................    27
Mr. Martin Conway, Deputy Police Chief, National Railroad 
  Passenger Corporation--Amtrak:
  Oral Statement.................................................    28
  Prepared Statement.............................................    30

                                Panel II

Sergeant W. Greg Kierce, Director, Office of Emergency Management 
  and Homeland Security, City of Jersey City, New Jersey:
  Oral Statement.................................................    39
  Prepared Statement.............................................    41
Mr. Richard Sposa, Operations Coordinator, Emergency Medical 
  Services, Jersey Medical Center:
  Oral Statement.................................................    42
  Prepared Statement.............................................    46
Mr. Richard D. Gorman, Office of Emergency Management and 
  Homeland Security, Department of Fire and Emergency Services, 
  Jersey City, New Jersey:
  Oral Statement.................................................    48
  Prepared Statement.............................................    51
Mr. Vincent Glenn, Commander, Emergency Service Unit, Police 
  Department, Jersey City, New Jersey:
  Oral Statement.................................................    53
  Prepared Statement.............................................    55
Mr. Mike Mollahan, Trustee, Port Authority Police Benevolent 
  Association:
  Oral Statement.................................................    57
  Prepared Statement.............................................    59

 
      PROTECTING OUR PASSENGERS: PERSPECTIVES ON SECURING SURFACE 
               TRANSPORTATION IN NEW JERSEY AND NEW YORK

                              ----------                              


                         Tuesday, June 21, 2016

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                   Jersey City, NJ.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
Room 202, Hepburn Hall, New Jersey City University, 2039 
Kennedy Boulevard, Jersey City, New Jersey, Hon. Daniel M. 
Donovan, Jr. (Chairman of the subcommittee) presiding.
    Present: Representatives Donovan, Payne, and Watson 
Coleman.
    Mr. Donovan. The Committee on Homeland Security's 
Subcommittee on Emergency Preparedness, Response, and 
Communications will come to order.
    The subcommittee is meeting today to examine surface 
transportation security. I appreciate the effort taken on 
behalf of all those involved to have this important field 
hearing.
    This is an official Congressional hearing, as opposed to a 
town hall meeting, and as such, we must abide by certain rules 
of the Committee on Homeland Security and the House of 
Representatives. I kindly wish to remind our guests today that 
demonstrations from the audience, including applause and verbal 
outbursts, as well as the use of signs or placards, are a 
violation of the rules of the House of Representatives. It is 
important that we respect the decorum and the rules of this 
committee.
    I now recognize myself for an opening statement.
    Thank you all for being here today. First, I would like to 
thank New Jersey City University for hosting us today, as well 
as Ranking Member Payne, who has focused a great deal on our 
shared priority of security for transportation.
    Now, especially with a threat environment that is the 
highest since 9/11, it is critically important to examine our 
region's surface transportation security. We are here to learn 
how Federal partners, transit agencies, and first responders 
are working together to protect passengers from the type of 
hateful violence that hit Orlando last week.
    As that attack tragically reminded us, the threats from 
terrorism and their sympathizers--terrorists and their 
sympathizers, are not going away. They are evolving and 
increasing. Now, more than ever, Congress needs to do 
everything it can to assist stakeholders in building and 
sustaining their capabilities to prevent, protect against, and, 
God forbid, respond to a terrorist attack.
    Today, stakeholders from State and local government, the 
private sector, and surface transportation networks are giving 
their time to share with us their perspectives on achieving our 
shared goal of protecting millions of regional commuters. We 
will look specifically at the preparedness and response 
capabilities of surface transportation systems in New York and 
New Jersey, one of the highest threat regions in the world.
    Surface transportation networks serve more than 10 billion 
riders annually. MTA alone moves more than 8.7 million 
residents on their subways, buses, and commuter rails each day. 
It is no surprise then that nearly 15 years after the tragedy 
in lower Manhattan, our transportation systems remain a top 
target for international terror organizations.
    This isn't a new threat. We have seen the devastating 
impacts of an attack against transportation systems, most 
recently a bombing in a metro station in Brussels. Since 2002, 
authorities have thwarted 6 terrorist plots against mass 
transit systems in the United States. Alarmingly, 5 of those 6 
plots were against systems serving the New York metropolitan 
region.
    As the threat grows, we need to ensure that surface 
transportation systems and first responders have the resources 
necessary to respond to acts of terrorism and other 
emergencies. That is why we convened this hearing today. We 
want to hear from the people here on the ground, not hundreds 
of miles away in Washington, about what is working and what is 
not.
    Back in April, this subcommittee held a very informative 
roundtable discussion along with the Subcommittee on 
Transportation Security regarding this issue. We heard from 
multiple transit agencies, many of whom are represented on our 
first panel today, about how they have collaborated with 
Federal partners like the Transportation Security 
Administration to secure their infrastructures. I hope we could 
build upon that discussion today.
    When I came to Congress and attended my first few hearings, 
I asked my staff what happens when these hearings are finished? 
Who uses this information that we have obtained, and how do we 
use it?
    I assure you that the information gathered today will help 
form the policies we enact to improve security for our region's 
commuters. I am particularly interested in learning about how 
our witnesses use the Transit Security Grant Program and other 
Homeland Security grants, and if there are needs to change or 
enhance these programs that Congress should be addressing.
    Also I am interested in hearing more about how security 
personnel for mass transit systems coordinate with Federal 
Government and local first responders to ensure everyone is 
prepared to respond to incidents. How are our witnesses working 
together with other transit agencies to share threat 
information and best practices?
    I want to thank all of our witnesses for testifying today. 
We have two very distinguished panels before us, and I look 
forward to learning how they are protecting passengers and what 
we, as Congress, can do to help mitigate any gaps.
    [The statement of Chairman Donovan follows:]
              Statement of Chairman Daniel M. Donovan, Jr.
                             June 21, 2016
    Thank you all for being here today.
    First, I'd like to thank the New Jersey City University for hosting 
us today, as well as Ranking Member Payne, who has focused a great deal 
on our shared priority of transportation security.
    Now especially, with a threat environment that's the highest since 
9/11, it's critically important to examine our region's surface 
transportation security.
    We're here to learn how Federal partners, transit agencies, and 
first responders are working together to protect the passengers from 
the type of hate-filled violence that hit Orlando last week.
    As that attack tragically reminded us, the threats from terrorist 
organizations and their sympathizers are not going away. They're 
evolving and increasing.
    Now more than ever, Congress needs to do everything it can to 
assist stakeholders in building and sustaining their capabilities to 
prevent, protect against, and--God forbid--respond to a terrorist 
attack.
    Today, stakeholders from State and local government, the private 
sector, and surface transportation networks are giving their time to 
share with us their perspectives on achieving our shared goal of 
protecting millions of regional commuters.
    We'll look specifically at the preparedness and response 
capabilities of surface transportation systems in New York and New 
Jersey, one of the highest-threat regions in the world.
    Surface transportation networks serve more than 10 billion riders 
annually. MTA alone moves more than 8.7 million residents on their 
subways, buses, and commuter rail lines each day.
    It's no surprise, then, that nearly 15 years after the tragedy in 
lower Manhattan, our transportation systems remain a top target for 
international terror organizations.
    This isn't a new threat. We've seen the devastating impacts of an 
attack against transportation systems, most recently a bombing at a 
metro station in Brussels. Since 2002, authorities have thwarted 6 
terrorist plots against mass transit systems in the United States.
    Alarmingly, 5 out of those 6 plots were against systems serving the 
New York metropolitan region.
    As the threat grows, we need to ensure that surface transportation 
systems and first responders have the resources needed to respond to 
acts of terrorism and other emergencies.
    That's why we convened this hearing today. We wanted to hear from 
the people here on the ground--not hundreds of miles away in 
Washington--about what's working and what's not.
    Back in April, this subcommittee held a very informative roundtable 
discussion with the Subcommittee on Transportation Security regarding 
this issue.
    We heard from multiple transit agencies, many of whom are 
represented on our first panel today, about how they're collaborating 
with Federal partners, like the Transportation Security Administration, 
to secure their infrastructure.
    I hope we can build upon that discussion today.
    You know, when I came to Congress and attended my first few 
hearings, I asked my staff: ``What happens when these hearings are 
finished? Who uses this information and how?''
    I assure you that the information gathered today will help form the 
policies we enact to improve security for our region's commuters.
    I'm particularly interested in learning more about how our 
witnesses use the Transit Security Grant Program and other Homeland 
Security grants, and if there are needed changes or enhancements to 
these programs that Congress should address.
    Also, I'm interested in hearing more about how security personnel 
for mass transit systems coordinate with the Federal Government and 
local first responders to ensure everyone is prepared to respond to 
incidents.
    And how are our witnesses working with other transit agencies to 
share threat information and best practices?
    I want to thank all of the witnesses for testifying today. We have 
two very distinguished panels before us and I look forward to learning 
how they're protecting passengers and what we, as Congress, can do to 
help mitigate any gaps.

    Mr. Donovan. The Chair now recognizes the Ranking Member of 
the subcommittee, Mr. Payne, for an opening statement he may 
have.
    Mr. Payne. Good morning. I would first like to thank 
Chairman Donovan, my neighbor from Staten Island, for agreeing 
to hold today's hearing on securing surface transportation here 
in Jersey City.
    Our region is a National transportation hub with diverse 
assets, from rail to bus to ferries. Our transit operators, 
first responders, and workers are uniquely positioned to tell 
us what the Federal Government does well to keep our system 
secure and what it can do better. In light of the number of 
transportation systems running through this area, the people 
here are especially qualified to share perspectives on 
coordination among transit operators with emergency responders.
    Since I joined the Committee on Homeland Security in 2013, 
I have focused my efforts on making sure people are safe in the 
places they should be safe, whether it is in a school, at a 
nightclub, a sporting event, or on a train, or getting to work. 
Two years ago, I hosted a hearing in Newark on securing mass 
gatherings, using New Jersey's impressive preparations for the 
2014 Super Bowl as a case study. New Jersey had important best 
practices to share.
    I am proud that the rest of the country was able to benefit 
from New Jersey's expertise in making a soft target safer. 
Nevertheless, there are still people, whatever their 
motivations, who want to exploit soft targets in our 
communities. The tragic events in Orlando are evidence of that, 
and let me again express my deepest condolences to the families 
and loved ones of the victims in Orlando.
    The terrorist attacks in Belgium earlier this year also 
underscore the threats to soft targets. On March 22, the world 
was devastated when terrorists carried out 3 coordinated 
attacks at transportation facilities in Brussels.
    As I was in Washington getting briefed on the attacks, I 
could not help but think of my district and my constituents. 
Every day, thousands of my constituents board trains to get to 
work or visit somewhere along the Northeast Corridor, whether 
it is New Jersey Transit, PATH, subway, or Amtrak. When I saw 
the footage of the devastation in Brussels, I could not help 
but ask myself how do we make sure nothing like that happens 
here, and how do we make sure that our first responders are 
prepared to respond if it does?
    Congress took important steps to prevent attacks on our 
surface transportation systems nearly 10 years ago when it 
passed the 
9/11 Act. It required the Transportation Security 
Administration to issue regulations to secure high-risk transit 
systems and improve training for front-line employees.
    I am troubled the TSA is almost a decade behind in issuing 
these regulations and want to know why they have been held up 
and when we can expect them. Additionally, I am interested to 
learn how TSA coordinates with transit operators to improve 
security in the absence of the required regulations.
    Today, we also have a distinguished panel of emergency 
responders who have spent well over a decade building robust 
capabilities to respond to full-spectrum--the full spectrum of 
events, from man-made and natural disasters to mass transit 
disasters. The 9/11 attacks revealed significant gaps in the 
National response capabilities and the need for improved 
coordination among first responders and local stakeholders.
    The remarkable progress this region has made is due in 
large part to the significant--to the significant Federal 
Homeland Security grant funding. Today, we will have an 
opportunity to learn how grant investments have made us safer 
and what more the Federal Government needs to do.
    Once again, I would like to thank Chairman Donovan for 
holding today's hearing in Jersey City. I would also like to 
thank my New Jersey colleague, Congresswoman Bonnie Watson 
Coleman, for participating.
    Finally, I would like to thank the New Jersey City 
University for hosting today's field hearing, and I look 
forward to the witnesses' testimony, and I thank them for being 
here.
    With that, Mr. Chair, I yield back.
    [The statement of Ranking Member Payne follows:]
            Statement of Ranking Member Donald M. Payne, Jr.
                             June 21, 2016
    Our region is a National transportation hub with diverse assets--
from rail, to bus, to ferries.
    And our transit operators, first responders, and workers are 
uniquely positioned to tell us what the Federal Government does well to 
keep our systems secure and what it can do better.
    In light of the number of transportation systems running through 
this area, people here are especially qualified to share perspectives 
on coordination among transit operators and with emergency responders.
    Since I joined the Committee on Homeland Security in 2013, I have 
focused my efforts on making sure people are safe in the places they 
should be safe--whether it is at a school, a night club, a sporting 
event, or on a train, getting to work.
    Two years ago, I hosted a hearing in Newark on securing mass 
gatherings, using New Jersey's impressive preparations for the 2014 
Super Bowl as a case study.
    New Jersey had important best practices to share.
    I am proud that the rest of the country was able to benefit from 
New Jersey's expertise in making a ``soft target'' safer.
    Nevertheless, there are still people--whatever their motivations--
who want to exploit soft targets in our communities.
    The tragic events in Orlando are evidence of that. I, again, want 
to express my deepest condolences to the families and loved ones of the 
victims.
    The terrorist attacks in Belgium earlier this year also underscore 
the threats to soft targets.
    On March 22, the world was devastated when terrorists carried out 
three coordinated attacks at transportation facilities in Brussels.
    As I was in Washington getting briefed on the attacks, I couldn't 
help but think of my district, and my constituents.
    Every day, thousands of my constituents board trains to get to work 
or visit somewhere along the Northeast Corridor, whether it's Jersey 
Transit, PATH, the subway, or Amtrak.
    When I saw footage of the devastation in Brussels, I couldn't help 
but ask myself, ``How do we make sure nothing like that happens here?'' 
and ``How do we make sure that our first responders are prepared to 
respond if it does?''
    Congress took important steps to prevent attacks on our surface 
transportation systems nearly 10 years ago when it passed the 9/11 Act.
    It required the Transportation Security Administration to issue 
regulations to secure high-risk transit systems and improve training 
for front-line employees.
    I am troubled that TSA is almost a decade behind in issuing these 
regulations, and want to know why they have been held up and when we 
can expect them.
    Additionally, I am interested to learn how TSA coordinates with 
transit operators to improve security in the absence of the required 
regulations.
    Today, we also have a distinguished panel of emergency responders 
who have spent well over a decade building robust capabilities to 
respond to the full spectrum of events--from manmade and natural 
disasters to mass transit incidents.
    The 9/11 attacks revealed significant gaps in National response 
capabilities and the need for improved coordination among first 
responders and local stakeholders.
    The remarkable progress this region has made is due, in large part, 
to significant Federal homeland security grant funding.
    Today, we will have the opportunity to learn how grant investments 
have made us safer, and what more the Federal Government needs to do.

    Mr. Donovan. Thank you, Mr. Payne.
    We are pleased to have two panels of very distinguished 
witnesses before us today on this important topic. I will now 
introduce our first panel.
    Ms. Sonya Proctor serves as the director for the 
Transportation Security Administration's Surface Division, 
where she is responsible for developing risk-based security 
policies in conjunction with stakeholders in surface 
transportation modes. Prior to joining TSA, Ms. Proctor served 
as chief of the Amtrak Police Department and served 25 years on 
the Washington, DC, Metropolitan Police Department.
    Welcome.
    Ms. Proctor. Thank you.
    Mr. Donovan. Mr. Thomas Belfiore serves as the chief 
security officer for the Port Authority of New York and New 
Jersey, a position he has held since 2015. Prior to joining the 
Port Authority in 2012, Mr. Belfiore held several positions in 
law enforcement as well as security management, including 
director of security operations for Major League Baseball.
    Mr. Raymond Diaz serves as the director of security for the 
Metropolitan Transportation Authority. In this capacity, he 
oversees the overall security of the MTA, including the 
coordination of MTA's security efforts with Federal, State, and 
local law enforcement. Prior to joining the MTA, Mr. Diaz was a 
member of the New York City Police Department for 41 years and 
retired in 2011 as the chief of the Transit Bureau.
    Welcome, Chief.
    Mr. Christopher Trucillo serves as the chief of New Jersey 
Transit, a position he has held since 2010. Prior to joining 
New Jersey Transit, Chief Trucillo served as the director of 
public safety for John Jay College of Criminal Justice and 
spent more than 20 years in the Port Authority Police 
Department, where he served as chief of department.
    Welcome, Chief.
    Chief Trucillo. Thank you.
    Mr. Donovan. Mr. Martin Conway serves as the deputy chief 
of the Amtrak Police Department, a position he has held since 
August 2014. Prior to joining Amtrak, Chief Conway served on 
the New York City Police Department for 26 years. While with 
the New York City Police Department, he served as an inspector 
in the Counterterrorism Division responsible for coordinating 
counterterrorism measures within the New York subway system.
    The witnesses' full written testimony will appear in the 
record. The Chair now recognizes Ms. Proctor for 5 minutes to 
testify.

STATEMENT OF SONYA PROCTOR, DIRECTOR, SURFACE DIVISION, OFFICE 
  OF SECURITY POLICY AND INDUSTRY ENGAGEMENT, TRANSPORTATION 
                    SECURITY ADMINISTRATION

    Ms. Proctor. Thank you, Mr. Chairman, and good morning.
    Good morning, Chairman Donovan, Ranking Member Payne, and 
Representative Watson Coleman. I truly appreciate the 
opportunity to appear before you today to discuss the 
Transportation Security Administration's role in transportation 
security.
    The transportation security network is immense, consisting 
of mass transit systems, passenger and freight railroads, 
highways, motor carrier operators, pipelines, and maritime 
facilities. The New York Metropolitan Transportation Authority, 
New York MTA, alone transports over 11 million passengers daily 
and represents just one of more than 6,800 U.S. public transit 
agencies for which TSA has oversight, ranging from very small 
bus-only systems in rural areas to very large multi-modal 
systems like the one in the New York MTA urban areas.
    More than 500 individual freight railroads operate on 
nearly 140,000 miles of track, carrying essential goods. Eight 
million large-capacity commercial trucks and almost 4,000 
commercial bus companies travel on the 4 million miles of 
roadway in the United States.
    Surface transportation operators carry approximately 750 
million intercity bus passengers and provide 10 billion 
passenger trips on mass transit each year. The pipeline 
industry consists of more than 2.5 million miles of pipelines 
owned and operated by approximately 3,000 private companies, 
which transport natural gas, refined petroleum products, and 
other commercial products throughout the United States.
    These thousands of miles of transportation systems and 
millions of traveling people remain a target for terrorist 
activity, as evidenced by the recent attacks on mass transit 
and passenger rail carriers in France and Belgium. These 
attacks underscore the importance of building upon our surface 
transportation successes through stakeholder communication, 
coordination, and collaboration.
    Securing such a vast surface transportation network 
requires a group effort. TSA's role is focused on security 
program oversight, while the direct responsibility to secure 
surface-specific transportation systems falls primarily on the 
system owners and operators. TSA works with State, local, and 
industry partners to assess risk, reduce vulnerabilities, and 
improve security through collaborative efforts.
    Collaboration between TSA and industry occurs through daily 
interaction and engagement, as well as through formal 
structures, including the DHS-led Critical Infrastructure 
Partnership Advisory Council framework, sector coordinating 
councils, and other industry-centric organizations, such as the 
Mass Transit Policing and Security Peer Advisory Group.
    TSA, security agencies, industry associations, and the 
corporate leadership of industry and municipal operator 
stakeholders jointly pursue policies to secure surface systems, 
including implementation of exercises and training, physical 
and cyber protective measures, and operational deterrence 
activities. Working with our partners, we develop resources for 
security training and exercises, such as TSA-produced training.
    For example, our Intermodal Security Training and Exercise 
Program, it is called I-STEP, helps surface entities test and 
evaluate their security plans and their ability to respond to 
threats along with other first responders. We also have the TSA 
First Observer Program, which trains highway professionals to 
observe, assess, and report potential security and terrorism 
incidents.
    TSA coordinates with Amtrak and New York MTA to support 
rail safe operations in which Amtrak police and law enforcement 
officers from Federal, State, local rail and transit agencies 
deploy at passenger rail and transit stations and along the 
railroad rights-of-way to exercise counterterrorism and 
incident response capabilities. The coordinated effort involves 
activities such as heightened station and right-of-way patrols, 
increased security presence on-board trains, explosives 
detection canine sweeps, random passenger bag inspections, and 
counter-surveillance.
    TSA also plays a role in surface transportation security 
through regulatory compliance inspections and voluntary 
assessments. We conduct thousands of inspections of freight 
railroads each year on rail cars carrying rail security 
sensitive materials as well as assessments on the 100 largest 
transit and passenger railroad systems, which account for over 
95 percent of all users of public transportation. Results of 
these assessments translate into resource allocation decisions 
to ensure that the higher-risk entities with the greatest need 
receive priority consideration for available resources.
    TSA remains dedicated to securing the Nation's surface 
transportation network from terrorist activities and attacks 
through close collaboration with our State, local, and industry 
partners. Moving forward, our goal working with our industry is 
to continually improve surface transportation security through 
the development and implementation of intelligence-driven, 
risk-based policies and plans.
    We thank you very much this morning for the opportunity to 
discuss these important issues and appreciate the committee's 
support of TSA's goals.
    Thank you.
    [The prepared statement of Ms. Proctor follows:]
                  Prepared Statement of Sonya Proctor
                             June 21, 2016
    Good morning, Chairman Donovan, Ranking Member Payne, and 
distinguished Members of the subcommittee. I appreciate the opportunity 
to appear before you today to discuss the Transportation Security 
Administration's (TSA) role in surface transportation security.
    The surface transportation network is immense, consisting of mass 
transit systems, passenger and freight railroads, highways, motor 
carrier operators, pipelines, and maritime facilities. The New York 
Metropolitan Transportation Authority (NY MTA) alone transports over 11 
million passengers daily--and represents just one of the more than 
6,800 U.S. public transit agencies for which TSA has oversight, ranging 
from very small bus-only systems in rural areas to very large multi-
modal systems like the NY MTA in urban areas. More than 500 individual 
freight railroads operate on nearly 140,000 miles of track carrying 
essential goods. Eight million large capacity commercial trucks and 
almost 4,000 commercial bus companies travel on the 4 million miles of 
roadway in the United States and on more than 600,000 highway bridges 
over 20 feet in length and through 350 tunnels greater than 300 feet in 
length. Surface transportation operators carry approximately 750 
million intercity bus passengers and provide 10 billion passenger trips 
on mass transit each year. The pipeline industry consists of 
approximately 3,000 private companies, which own and operate more than 
2.5 million miles of pipelines transporting natural gas, refined 
petroleum products, and other commercial products that are critical to 
the economy and the security of the United States. Securing such large 
surface transportation systems in a society that depends upon the free 
movement of people and commerce is a complex undertaking that requires 
extensive collaboration with surface transportation operators.
    Recent terror attacks on mass transit and passenger rail carriers 
in France and Belgium remind us of the need to remain vigilant. While 
there is no known specific, credible terrorist threat to the U.S. 
passenger rail system at this time, the August 2015 incident in Paris 
and the March 2016 attacks in Brussels underscore the need to continue 
to build upon our surface transportation successes through stakeholder 
communication, coordination, and collaboration. Surface transportation 
passenger systems are, by nature, open systems. In the face of a 
decentralized, diffuse, complex, and evolving terrorist threat, TSA 
responds by employing cooperative and collaborative relationships with 
key stakeholders to develop best practices, share information, and 
execute security measures to strengthen and enhance the security of 
surface transportation networks.
    Unlike the aviation mode of transportation, direct responsibility 
to secure surface transportation systems falls primarily on the system 
owners and operators. TSA's role in surface transportation security is 
focused on security program oversight, system assessments, voluntary 
operator compliance with industry standards, collaborative law 
enforcement and security operations, and regulations. Security and 
emergency response planning is not new to our surface stakeholders; 
they have been working under Department of Transportation (DOT) and 
U.S. Coast Guard (USCG) programs and regulations for many years. 
Although DOT's regulations relate primarily to safety, many safety 
activities and programs also benefit security and help to reduce risk. 
In the surface environment, TSA has built upon these standards to 
improve security programs with minimal regulations.
    TSA's spending on surface transportation realizes a massive return 
on its budgetary investment. TSA's resources and personnel directly 
support on-going security programs by committed security partners who, 
in turn, spend millions of their own funds to secure critical 
infrastructure, provide uniformed law enforcement and specialty 
security teams, and conduct operational activities and deterrence 
efforts. We have invested our resources to help security partners 
identify vulnerabilities and risk in their agencies. Surface 
transportation entities know their facilities and their operational 
challenges, and with their knowledge and our assistance, they are able 
to direct accurately their own resources in addition to the hundreds of 
millions of dollars in Federal security grant funding to reduce the 
risk of a terrorist attack.
            federal, state, local, and private coordination
    Securing the vast surface transportation network requires a group 
effort. TSA oversees the development and implementation of risk-based 
security initiatives for surface transportation in coordination with 
our security partners.
    TSA, on behalf of the Department of Homeland Security (DHS), is a 
co-Sector-Specific Agency alongside DOT and USCG for the transportation 
sector. DOT and TSA work together to integrate safety and security 
priorities. As part of the DHS-led Critical Infrastructure Partnership 
Advisory Council (CIPAC) framework, TSA, DOT, and the USCG co-chair 
Government Coordinating Councils to facilitate information sharing and 
coordinate on activities including security assessments, training, and 
exercises. Additionally, TSA leverages its core competencies in 
credentialing, explosives detection, and intermodal security to support 
the USCG as lead agency for maritime security.
    TSA works with State, local, and industry partners to assess risk, 
reduce vulnerabilities, and improve security through collaborative 
efforts. Collaboration between TSA and industry occurs through daily 
interaction and engagement, as well as through formal structures 
including the DHS-led CIPAC framework, Sector Coordinating Councils, 
and other industry-centric organizations such as the Mass Transit 
Policing and Security Peer Advisory Group. TSA, security agencies, and 
the corporate leadership of industry and municipal operator 
stakeholders jointly pursue policies to secure surface systems, 
including implementation of exercises and training, physical and cyber 
hardening measures, and operational deterrence activities.
     regional alliance including local, state, and federal efforts 
                               (railsafe)
    TSA coordinates with Amtrak and NY MTA to support RAILSAFE 
operations, in which Amtrak police and law enforcement officers from 
Federal, State, local, rail, and transit agencies deploy at passenger 
rail and transit stations and along the railroad rights-of-way to 
exercise counterterrorism and incident-response capabilities. This 
coordinated effort involves activities such as heightened station and 
right-of-way patrols, increased security presence on-board trains, 
explosives detection canine sweeps, random passenger bag inspections, 
and counter-surveillance. RAILSAFE operations are conducted several 
times a year to deter terrorist activity through unpredictable security 
activities. On average, more than 40 States and Canada, and over 200 
agencies participate in RAILSAFE operations. The most recent RAILSAFE 
operation was conducted on May 26, 2016, with more than 1,400 officers 
across 205 agencies representing 42 States and Canada participating.
                         exercises and training
    TSA has developed multiple training and exercise programs to assist 
industry operators in directing their resources and efforts towards 
effectively reducing risk. With the support of Congress, TSA developed 
the Intermodal Security Training and Exercise Program (I-STEP). TSA 
facilitates I-STEP exercises across all surface modes to help 
transportation entities test and evaluate their security plans, 
including prevention and preparedness capabilities, ability to respond 
to threats, and cooperation with first responders from other entities. 
TSA uses a risk-informed process to select the entities that receive I-
STEP exercises and updates I-STEP scenarios as new threats emerge to 
ensure industry partners are prepared to exercise the most appropriate 
countermeasures. Since fiscal year 2008, TSA has conducted over 105 I-
STEP exercises throughout 40 High-Threat Urban Areas (HTUAs), including 
8 conducted so far this fiscal year, such as motorcoach exercises in 
Los Angeles, CA and Myrtle Beach, SC; mass transit exercises in Houston 
and San Antonio, TX; and maritime exercises in New York City and 
Washington, DC. Additionally, TSA conducted an I-STEP exercise in 
Philadelphia in August 2015 to help that region prepare for the Papal 
visit.
    In fiscal year 2015, TSA developed and began utilizing the Exercise 
Information System (EXIS) tool, which examines a surface transportation 
operator's implementation of security measures in the areas of 
prevention, protection, mitigation, response, and recovery. EXIS helps 
transportation operators identify areas of strength in an operator's 
security program, as well as those areas that need attention where they 
can then focus or redirect resources, such as security grant funding. 
TSA also is able to provide operators with several resources that can 
improve capability in areas such as training, public awareness 
campaigns, and best practices that other systems have implemented to 
address security concerns. Since program inception, TSA has facilitated 
16 EXIS exercises with stakeholders in HTUAs.
    TSA disseminates training materials and information to stakeholders 
through several avenues. Through the Security Measures And Resources 
Toolbox (SMARToolbox) and other security and public awareness training 
materials, TSA provides surface transportation professionals relevant 
insights into security practices used by peers throughout the industry 
and mode-specific recommendations for enhancing an entity's security 
posture. TSA developed the Surface Compliance Analysis Network (SCAN) 
to analyze daily incidents reported to the Transportation Security 
Operations Center to identify security-related trends or patterns. TSA 
disseminates SCAN trend reports to affected entities, as well as to the 
broader industry for situational awareness. SCAN reports have been able 
to identify incidents that when taken individually may not seem to be 
an issue or threat, but when compiled over time and analyzed locally, 
regionally, and Nationally, present activities that may be pre-
operational activity aimed at detecting the response methods and/or 
capabilities of surface transportation systems. The number of similar 
incidents reported in relatively short periods of time may indicate the 
intent of a perpetrator to disrupt operations and potentially cause 
damage and injuries. These SCAN trend reports provide insight into 
those potential threats and operations.
    TSA's First Observer<SUP>TM</SUP> security domain awareness program 
delivers web-based training to surface transportation professionals, 
encouraging front-line workers to ``Observe, Assess, and Report'' 
suspicious activities. Approximately 100,000 individuals have been 
trained on the First Observer<SUP>TM</SUP> Program. Operators have 
credited First Observer<SUP>TM</SUP> Program training in their ability 
to disrupt a potential Greyhound bus hijacking situation in February 
2011. Also in February 2011, a concerned Con-way employee followed 
principles he received from the Program's training to alert authorities 
about inconsistencies regarding chemicals shipped and their intended 
use, which led to the arrest of an individual who was then charged with 
attempting to bomb nuclear power plants and dams along the West Coast. 
The investigation also revealed that the subject was planning to target 
the home of former President George W. Bush as well.
    TSA strongly encourages the use of the If You See Something, Say 
Something<SUP>TM</SUP> public awareness campaign--which the NY MTA 
created using DHS security grant funding--to make the traveling public 
the ``eyes and ears'' of the transportation systems. Similarly, TSA's 
Not On My Watch program is directed at the surface transportation 
community and designed to make employees of surface transportation 
systems part of awareness programs intended to safeguard National 
transportation systems against terrorism and other threats. TSA also 
works with industry to identify emerging security training needs, 
develop new training modules, and refresh existing training.
    In September 2014, TSA began a program to provide senior-level 
industry transportation security officials with a detailed exposure to 
TSA's surface security programs and policies. Once a quarter, a senior 
executive from a surface transportation operator or entity is invited 
to spend 4 to 6 weeks at TSA to gain first-hand experience in TSA's 
counterterrorism and risk reduction efforts and foster beneficial 
relationships among TSA and industry stakeholders. Participants in the 
program have included Amtrak, the Washington Metropolitan Area Transit 
Authority, NY MTA, and the Bay Area Rapid Transit District. Executives 
from these agencies were given a broad exposure to TSA operations in 
the surface and aviation modes, and left with a better appreciation for 
the scope and breadth of the services TSA provides for all modes of 
transportation. The program also allows TSA to use the senior 
executives as sounding boards for potential security programs and 
policies, to ensure that our initiatives not only address their 
greatest security concerns, but are feasible from an operational 
perspective at the local levels of transportation.
         sector-specific programs, assessments, and inspections
    TSA performs regulatory inspections on railroad operations, and 
voluntary assessments of systems and operations within all of the 
surface transportation modes to ensure operator compliance with 
security regulations and adoption of voluntary security practices. TSA 
deploys 260 Transportation Security Inspectors for Surface (TSI-S) to 
assess and inspect the security posture of surface transportation 
entities.
    TSA and its partners in the freight rail industry have 
significantly reduced the vulnerability of rail security-sensitive 
materials, including Toxic Inhalation Hazard (TIH) materials, 
transported through populous areas by reducing urban dwell time. The 
National rate of regulatory compliance rate is above 99%.
    In 2006, TSA established the Baseline Assessment for Security 
Enhancement (BASE) program, through which TSA Inspectors conduct a 
thorough security program assessment of mass transit and passenger rail 
agencies as well as over-the-road bus operators. These inspectors help 
local transit systems develop a ``path forward'' to remediate 
vulnerabilities identified in the vulnerability assessments, and 
identify resources that TSA or other areas of the Federal Government 
can provide to help transit systems raise their security baseline. The 
results of these assessments are analyzed to influence TSA policy and 
development of voluntary guidelines to ensure that our voluntary 
policies and programs are addressing the most critical vulnerabilities 
from a security perspective. TSA performs these voluntary BASE 
assessments with emphasis on the 100 largest mass transit and passenger 
railroad systems measured by passenger volume, which account for over 
95 percent of all users of public transportation. TSA has conducted 
over 430 assessments on mass transit and passenger rail systems since 
2006. In fiscal year 2015, TSA Inspectors completed 117 BASE 
assessments on mass transit and passenger rail agencies, of which 13 
resulted in Gold Standard Awards for those entities achieving overall 
security program management excellence. In 2012, TSA expanded the BASE 
program to the highway and motor carrier mode and has since conducted 
over 400 reviews of highway and motor carrier operators, with 98 
reviews conducted in fiscal year 2015. On average, approximately 150 
reviews are conducted on mass transit and highway and motor carrier 
operators each year, with numerous reviews in various stages of 
completion for fiscal year 2016.
    TSA also regularly engages transit and passenger rail partners 
through the Transit Policing and Security Peer Advisory Group (PAG), 
which represents 26 of the largest public transportation systems in the 
United States, Canada, and the United Kingdom, and through regular 
monthly and as-needed industry-wide information-sharing calls, such as 
calls conducted after the attacks in Paris and Brussels. Our 
participation in forums such as the annual Mass Transit and Passenger 
Rail Security and Emergency Management Roundtable, and our continuing 
work with the PAG enable us to understand the security needs of our 
domestic and international security partners to collaboratively develop 
programs and resources to meet critical needs. Through the PAG and the 
Roundtables, we have restructured how security grant funds are awarded 
to high-risk transportation entities, ensuring that the funding 
priorities address the current threat and risks that our surface 
transportation operators face. We also developed a list of Nationally 
critical infrastructure assets in order to better direct Federal and 
local resources to implement security measures to protect those assets. 
Since fiscal year 2006, over $565 million in Transit Security Grant 
Program funding has been awarded for security projects specifically to 
harden these critical assets. We have also been able to enhance and 
refine the ways and time frames in which we share threat and 
intelligence information, through mechanisms such as Security Awareness 
Messages, and regular and as-needed industry information sharing and 
intelligence conference calls. TSA also hosts Classified briefings for 
cleared industry stakeholders when warranted.
    TSA has established a productive public-private partnership with 
the pipeline industry to secure the transport of natural gas, 
petroleum, and other products. TSA conducts both physical and corporate 
security reviews (CSR) within the pipeline sector, with over 400 
physical security reviews of critical facilities of the highest-risk 
pipeline systems completed since 2008 and over 140 corporate security 
reviews of high-risk systems since 2002. TSA completed 6 CSRs in fiscal 
year 2015; 4 have been completed in fiscal year 2016 with an additional 
4 scheduled for completion by the end of the fiscal year. The 
Implementing Recommendations of the 9/11 Commission Act of 2007 (Public 
Law 110-53) required TSA to develop and implement a plan for inspecting 
the critical facilities of the top 100 pipeline systems in the Nation. 
TSA conducted these required inspections between 2008 and 2011 through 
the Critical Facility Inspection program and is now focused on regular 
recurring reviews through TSA's Critical Facility Security Review 
(CFSR) program. TSA completed 46 CFSRs in fiscal year 2015; 21 have 
been completed in fiscal year 2016 with 16 more expected to be 
completed by the end of the fiscal year.
    TSA has developed pipeline security guidance with the assistance of 
pipeline system owners and operators, pipeline industry trade 
association representatives, and Government partners. Wide-spread 
implementation of this guidance by the pipeline industry has enhanced 
critical infrastructure security throughout the country. TSA is 
currently working with stakeholders to update these guidelines. There 
has been an increase in the quality of the company corporate security 
programs reviewed during CSRs, as the guidance has served as a template 
for establishing a corporate security program including a Corporate 
Security Plan. For pipeline critical facilities reviewed during CFSRs, 
there has been an increase in the number of facilities conducting 
security drills and exercises, an increase in coordination with local 
law enforcement agencies, and an increase in the number of facilities 
conducting security vulnerability assessments, all of which are 
recommended practices in the Guidelines.
                    securing surface through grants
    TSA provides the Federal Emergency Management Agency (FEMA) with 
subject-matter expertise to assist in the development of the Notice of 
Funding Opportunities for the Transit Security Grant Program. These 
FEMA grants support surface transportation risk mitigation by applying 
Federal funding to critical security projects with the greatest 
security effects. Between fiscal years 2006 and 2015, over $2.3 billion 
in Transit Security Grant funding was awarded to freight railroad 
carriers and operators, over-the-road bus operators, the trucking 
community, and public mass transit owners and operators, including 
Amtrak, and their dedicated law enforcement providers. One-hundred 
million dollars was appropriated in fiscal year 2016 for mass transit, 
passenger rail, and motor coach security grants, which are currently in 
the application process. Applications were due April 25, 2016, and DHS 
expects to announce final award allocations on June 29, 2016.
    TSA reviews the grant program framework and makes recommendations 
to FEMA, ensuring funding priorities are based on identified or 
potential threats and vulnerabilities identified through TSA assessment 
programs such as the BASE program, together with consideration of 
potential consequences. For instance, in 2007, TSA's review of the 
industry scores in the training category of the BASE assessments 
indicated a potential vulnerability, and TSA addressed the 
vulnerability by modifying the Transit Security Grant Program (TSGP) to 
prioritize front-line employee training. In fiscal year 2011, TSA's 
review of BASE scores and discussions with industry revealed that 
vulnerabilities at Nationally critical infrastructure assets were not 
being addressed as quickly as they could be. TSA worked with FEMA to 
overhaul the TSGP framework to prioritize these assets (``Top Transit 
Asset List'') for funding through a wholly competitive process. As a 
result over $565 million has been awarded to protect these assets, 
resulting in over 80% of them being considered secure from a 
preventative standpoint.
    As a result of information gained from TSA activities, DHS is able 
to direct grant funds to activities that have the highest efficacy in 
reducing the greatest risk, such as critical infrastructure 
vulnerability remediation, equipment purchases, anti-terrorism teams, 
mobile screening teams, explosives detection canine teams, training, 
drills and exercises, and public awareness campaigns. For example, the 
NY MTA has received $17 million in public awareness funding that helped 
create the If You See Something, Say Something<SUP>TM</SUP> campaign, 
which was credited with preventing a potential terrorist event in Times 
Square in New York City. Over $276 million in grant funds have been 
used to hire over 520 specialty transit law enforcement officers in the 
forms of K-9 teams, mobile explosives detection screening teams, and 
anti-terrorism teams. Transit systems in major cities including New 
York City, Washington, DC, Chicago, and Los Angeles use these grant-
funded teams and patrols not only to conduct regular operations, but 
also to provide extra local security and deterrence in response to 
attacks across the world, including the recent attack in Brussels.
                             cybersecurity
    TSA supports DHS cybersecurity efforts based on the National 
Institute of Standards and Technology cybersecurity framework, 
including within surface modes. The cybersecurity framework is designed 
to provide a foundation industry can implement to sustain robust 
cybersecurity programs, and TSA shares information and resources with 
industry to support adoption of the framework. TSA also provides a 
cybersecurity toolkit designed to offer the surface transportation 
industry an array of available no-cost resources, recommendations, and 
practices. Additionally, within the pipeline sector, TSA is 
coordinating a voluntary cyber-assessment program with the Federal 
Energy Regulatory Commission to conduct cybersecurity assessments of 
pipeline entities. TSA works closely with the pipeline industry to 
identify and reduce cybersecurity vulnerabilities, including through 
Classified briefings to increase awareness of the threat. TSA's efforts 
in cybersecurity are critical to securing surface transportation modes 
from cyber intrusions.
    implementing recommendations of the 9/11 commission act of 2007
    TSA has worked diligently to implement the requirements of the 
Implementing Recommendations of the 9/11 Commission Act of 2007 (Public 
Law 110-53). Under Administrator Neffenger's leadership, TSA has 
prioritized the few remaining outstanding requirements of the Act. 
These mandates include the issuance of regulations relating to security 
training (Sections 1408, 1517, and 1534) and security planning and 
vulnerability assessments (Sections 1405, 1512, 1531), as well as 
establishment of a program to complete name-based background and 
immigration checks for public transportation and railroad employees 
(Sections 1411 and 1520). TSA is making significant progress on all of 
these rulemakings, among others, and continues to dedicate substantial 
time and resources towards this effort. TSA will continue its 
prioritization of these rules notwithstanding the complexity and time-
consuming nature of the rulemaking process.
                               conclusion
    TSA is dedicated to securing the Nation's transportation systems 
from terrorist activities and attacks. Through its voluntary programs 
and minimal regulations, TSA mitigates security challenges faced by an 
open-by-nature surface transportation system in collaboration with our 
industry and Government partners. We are focused on improving surface 
transportation security through the development and implementation of 
intelligence-driven, risk-based policies and plans, and we appreciate 
the committee's support of TSA's goals. Thank you for the opportunity 
to discuss these important issues.

    Mr. Donovan. Thank you, Ms. Proctor.
    The Chair now recognizes Mr. Belfiore for 5 minutes of 
testimony. Welcome, sir.

STATEMENT OF THOMAS BELFIORE, CHIEF SECURITY OFFICER, THE PORT 
              AUTHORITY OF NEW YORK AND NEW JERSEY

    Mr. Belfiore. Thank you, Mr. Chairman.
    Good morning, Members of the subcommittee. My name is Tom 
Belfiore, and I am the chief security officer for the Port 
Authority of New York and New Jersey. I thank you for providing 
the opportunity to speak about this critically important topic.
    The Port Authority of New York and New Jersey conceives, 
builds, and operates infrastructure that is critical to the New 
York/New Jersey region's transportation and trade network. As 
you well know, the assets we protect include 6 airports, 
including JFK, Newark, and LaGuardia; 2 tunnels; 4 bridges--3 
of them in Staten Island--and the George Washington Bridge, the 
busiest bridge in the world; the Port Authority bus terminal in 
Manhattan, the busiest bus terminal in America; the PATH rail 
system; the Ports of New York and New Jersey; and of course, 
the World Trade Center complex.
    Brussels, Paris, and Orlando prove to us that we must now, 
more than ever, be prepared to address the ever-growing, ever-
evolving, and more lethal threats. To do so, we employ a multi-
layered security approach to protect our critical 
infrastructure and those who depend on them.
    The layers in the methodology include intelligence-led 
policing, measuring risk through a layered assessment process, 
police prevention and interdiction methods, operation security 
measures and the use of contract security resources, the 
deployment of available and developing technologies, 
engineered-hardened solutions.
    We have our own Office of Emergency Management. We depend 
on Federal, State, and regional partnerships like those we have 
with my esteemed colleagues at the table today. We measure 
effectiveness, we audit effectiveness, and we revise it.
    This multi-layered security approach is applied to all of 
our facilities. But for today, we will talk about PATH, a rail 
system that has 13 stations and 26 miles of track. On any given 
business day, the system will carry 265,000 passengers.
    Our policing strategy is intelligence led, as the Port 
Authority Police Department has a presence in 28 Federal, 
State, and local law enforcement task forces that most notably 
include the FBI's Joint Terrorism Task Force in both the States 
of New York and New Jersey. We are confident that we are 
connected to receive important and actionable intelligence and 
information.
    Our PAPD is a highly competent, professional, and well-
trained police agency that has police commands assigned around 
the clock at Port Authority critical infrastructure. Our 
policing methods, of course, include routine patrols, high-
visibility Emergency Service Unit deployment, the deployment of 
dedicated counterterrorism teams, as well as the assignment of 
explosive detection canines and radiation detection 
capabilities.
    It is important to note that police staffing at the PATH 
command has increased by 45 percent since 2002. Our police 
presence is supplemented by an unarmed contract security guard 
force at PATH of over 100 security officers who are trained in 
behavioral recognition techniques and counterterrorism 
awareness. These security officers are posted at critical 
locations throughout the system and also staff a 24/7 security 
operations center.
    In addition to these human assets, we have made significant 
investments in our capital security projects, as directed by 
our periodic program of risk assessments that inform our 
investments that further strengthen our facilities. Since 2001, 
the Port Authority has spent over $1.2 billion in hardening its 
critical infrastructure, and for the coming years, we plan to 
spend nearly another $1 billion to protect these assets. The 
Federal grant money that this delegation and others have made 
is vital to that effort.
    For the PATH system, specific measures have been taken to 
harden and protect the system from a variety of man-made and 
natural hazards that include infrastructure strengthening that 
make PATH tunnels more resilient to man-made threats. The use 
of technology is paramount to our protection scheme.
    In addition to over 800 CCTV cameras, the Port Authority 
has invested in a robust card access control system at PATH, 
intrusion detection systems that protect tunnel entrances, 
detection devices that help protect against chemical, 
biological, and radiological threats. We have enhanced the PATH 
radio communication system to allow for interoperable and 
intraoperable communications for PAPD and our mutual aid 
partners such as NYPD, FDNY, and New Jersey first responders 
that are so important to our response to emergencies at our 
facilities.
    The Port Authority has its own Office of Emergency 
Management that is very important to this multi-layered 
protection approach. They lead our agency-wide business 
continuity program. They manage and administer agency-wide 
security grant programs.
    Another very important role for OEM is to plan and execute 
agency-wide training and full-scale exercises. These remarkable 
training programs involve both agency personnel and our 
regional first responders. To date, over 27,000 Port Authority 
staff and regional first responders have been trained on such 
topics as incident command, active shooter, PATH rail 
emergencies, terror attacks, and other hazards.
    In order to maintain a prepared, unified, and accountable 
security operation, we regularly measure, audit, and inspect 
programs and systems. These internal auditing programs allow us 
to proactively identify and mitigate issues and concerns before 
our adversaries can exploit them.
    Further, in an effort to ensure independent third-party 
review, the Port Authority participates in Department of 
Homeland Security SAFETY Act program. In 2001, PATH received 
SAFETY Act designation for the protective system that is in 
place to protect PATH underwater tunnels.
    The Port Authority also participates in the TSA Baseline 
Assessment and Security Enhancement Program. In 2015, the TSA 
awarded the PATH security program the gold standard for best 
practices in rail security. We are exceedingly proud of that 
achievement.
    How the Federal Government can help. First and foremost, I 
thank, Chairman, this delegation for your advocacy for all of 
the efforts that the Port Authority tries to put forward. We 
keep security as a top priority. A critical resource is the 
Federal grant funding program. A large source of our funding 
comes from the Transit Security Grant Program.
    In 2016, a maximum amount of funding through this program 
was set at $87 million Nation-wide, an increase, if possible, 
of that funding could allow transit operators to pursue larger 
capital and operational security projects. Additionally, an 
increase in the period of performance from 3 to 5 years would 
allow us to plan larger-scale and more effective security 
capital projects.
    Additionally and last, perhaps DHS science and technology 
could publish a guide for review by decision makers relative to 
the investment and purchase of proven technologies that will 
better aid in the protection of transportation assets.
    In closing, I would like to thank the Members of this 
subcommittee and our Congressional delegation for their 
continuing support that allows us to better serve our 
employees, customers, and better protect our regional critical 
transportation infrastructure and those that rely on them.
    Thank you so much.
    [The prepared statement of Mr. Belfiore follows:]
                 Prepared Statement of Thomas Belfiore
                             June 21, 2016
                        about the port authority
    The Port Authority of New York & New Jersey conceives, builds, 
operates, and maintains infrastructure critical to the New York/New 
Jersey region's transportation and trade network. These facilities 
include America's busiest airport system, including: John F. Kennedy 
International, LaGuardia, and Newark Liberty International airports, 
marine terminals and ports, the PATH rail transit system, 6 tunnels and 
bridges between New York and New Jersey, the Port Authority Bus 
Terminal in Manhattan, and the World Trade Center. For more than 90 
years, the Port Authority has worked to improve the quality of life for 
the more than 18 million people who live and work in New York and New 
Jersey metropolitan region.
                the office of the chief security officer
    Created in 2012, the Office of the Chief Security Officer (OCSO) is 
a department within the Port Authority and is responsible for providing 
the highest quality public safety, facility security operations, 
security program management, emergency management, and airport rescue 
and firefighting training and services. Together, over 2,000 employees 
ensure the security and safe movement of the Port Authority's 
customers, partners, employees, and stakeholders every day.
I. Port Authority New York and New Jersey Transportation Assets
    The Port Authority builds, operates, and maintains critical 
transportation and trade assets that fall under our 5 lines of 
business:
  <bullet> Aviation
  <bullet> Rail
  <bullet> Tunnels, Bridges, and Terminals
  <bullet> Ports
  <bullet> Commercial Real Estate
    Our aviation assets include 6 airports: John F. Kennedy 
International Airport, LaGuardia Airport, Newark Liberty International 
Airport, Teterboro Airport, and Stewart International Airport. In 2015, 
Port Authority airports moved an estimated 124 million passengers.
    Our rail and surface transportation assets include the: Trans-
Hudson Rail System (PATH), George Washington Bridge, Bayonne Bridge, 
Goethals Bridge, Outerbridge Crossing, the Port Authority Bus Terminal, 
George Washington Bridge Bus Station, Journal Square Transportation 
Center, Holland Tunnel, and Lincoln Tunnel. Over 115 million vehicles 
travel over PA's bridges and tunnels annually.
    Port Authority also manages ports that transport vital cargo 
throughout the New York and New Jersey region. The Port of New York and 
New Jersey is the largest on the East Coast and in 2015 moved over 3.6 
million cargo containers.
    The Port Authority also owns and manages the 16-acre World Trade 
Center site, home to the iconic One World Trade Center.
II. Our Multi-Layered Approach to Securing Our Assets and Protecting 
        the Public
    We utilize a robust multi-layered security approach to protect the 
Port Authority's customers, the general public, employees, and critical 
infrastructure by developing, implementing, and managing programs that 
preserve life and property, increase safety and security, and support 
the agency's business objectives by strengthening our resilience and 
continuity of operations. With these measures in place--there is no 
single point of failure. Our multi-layered approach is explained in 
detail below.
            Intelligence-Led
    The Port Authority Police Department (PAPD) implements 
intelligence-led policing to ensure our resources are effectively 
deployed to prevent potential threats to our customers, employees, and 
facilities. The PAPD has presence in 28 Federal, State, and local law 
enforcement task forces, to include: The Federal Bureau of 
Investigation Joint Terrorism Task Force (FBI JTTF) in New York and New 
Jersey which allows for shared intelligence across many agencies; The 
New York and New Jersey High-Intensity Drug Trafficking Areas (HIDTA) 
taskforce and the New Jersey State Police Regional Operations 
Intelligence Center (ROIC) that allows for the immediate exchange of 
important, timely, and actionable intelligence for both sides of the 
Hudson.
    Additionally, we have a stakeholder representative assigned full-
time to the New York Police Department's Lower Manhattan Security 
Initiative. This unit is a key provider of day-to-day actionable 
intelligence relative to routine conditions like large events and 
demonstrations to current and emerging threats.
    These combined resources result in the agile, flexible, effective, 
and efficient deployment of security and law enforcement resources that 
are responsive to current and developing threats and conditions.
            Risk Assessments
    The protection of critical infrastructure is driven by all-hazards 
risk assessments which are performed on a regular basis to better 
understand changes in threats and vulnerabilities related to our 
facilities. Our periodic multi-hazard assessments look across all 
agency assets and prioritize our risk so we can guide our security 
investments accordingly.
            Police Interdiction Activities
    The PAPD is comprised of over 1,800 uniformed police officers 
operating across 13 Port Authority facilities. The department also 
includes a Criminal Investigations Bureau, Special Operations Division, 
which includes an Emergency Services Unit and a Canine Unit (K-9), and 
an Aircraft Rescue and Firefighting component at the Port Authority 
airports.
    Through visible uniformed police presence and in partnership with 
other law enforcement agencies, the PAPD suppresses crime and utilizes 
counterterrorism measures to thwart potential adversaries seeking to 
cause harm or disruption by way of an attack. PAPD also deploys high-
visibility patrols and specialized services to enhance basic patrol 
functions utilizing intelligence-led policing concepts.
            Operational Security Measures and Security Agents
    The Port Authority implements civilian security programs to 
supplement our police department activities and increase the levels of 
protection at our facilities. These programs safeguard Port Authority 
facilities from threats to physical infrastructure, unauthorized access 
to restricted areas, cybersecurity attacks, and breaches of protected 
security information.
    Additionally, the Port Authority employs over 1,000 unarmed 
Uniformed Contract Security Agents to guard our facilities and keep our 
employees and customers safe.
            Technology
    A critical element of a robust multi-layered approach is the 
development and maintenance of advanced technology systems to support 
both security and resiliency. Significant investments have been made in 
the areas of Closed Circuit Television (CCTV), access control systems, 
and our perimeter intrusion detection system (PIDS).
    In addition, we have created a new Cyber Security program to better 
monitor and respond to suspicious activities occurring on our network, 
therefore strengthening our capability to protect our critical 
information and industrial control systems. The Port Authority operates 
a 24/7 cybersecurity operations center that can receive and respond to 
threats to our network and equipment.
            Engineered Hardening Solutions
    Since September 11, 2001, we have made over $1 billion in asset-
hardening investments. Although faced with the challenge of 
retrofitting security features into existing facilities, we have 
implemented a multitude of hardening solutions such as bollard 
placement, fencing installation, tunnel and guard post hardening, 
floating barriers, facade glazing, flood mitigation systems and no 
trespassing signage. Prospectively, these protective measures are built 
into new developments or the renovations of existing assets.
            Office of Emergency Management
    The Port Authority enhances resiliency, response, and recovery 
through our Office of Emergency Management (OEM). The OEM champions 
programs that provide the Port Authority with the resources, support, 
and capabilities to prepare for, respond to, recover from, and mitigate 
against all-hazards. The OEM is organized into 3 core mission areas:
  <bullet> Emergency Management.--Supports the Incident Command 
        response structure at Port Authority during events or 
        incidents. Additionally, responsible for all-hazard planning 
        and training for agency personnel and regional partners who 
        will support our response activities to emergencies at our 
        facilities located in New York and New Jersey. Through the use 
        of table-top and full-scale exercise, over 27,000 Port 
        Authority staff and regional partners have been trained on such 
        topics as Active-Shooter response, PATH rail emergencies, 
        terror attacks, and other hazards.
  <bullet> Grant Management.--Administers and manages all Federal and 
        State Homeland Security Grants that allows us to harden our 
        assets, invest in technology, initiate new programs, and 
        provide for enhanced police protective services.
  <bullet> Risk Management and Resiliency.--Responsible for 
        coordinating and implementing the agency-wide all-hazard risk 
        assessment and oversees the Port Authority Business Continuity 
        program.
    These programs are regularly adapted to meet the needs of the Port 
Authority with an impact range that stretches from individual employee 
preparedness to agency-wide, corporate-level resiliency.
            Federal, State, and Regional Partnerships
    The Port Authority understands the importance of maintaining strong 
relationships with our Federal, State, and local partners. These 
cooperative partnerships are integral to our intelligence, 
counterterrorism, cybersecurity, technology, and training efforts. The 
support received through these partnerships helps us better secure our 
assets and the information exchange is mutually beneficial to all 
partners.
            Measuring Effectiveness and Performance Assurance
    In order to maintain a prepared, unified, and accountable security 
operation, the Port Authority regularly measures, audits, and inspects 
programs and systems. This practice instills a culture of evaluating 
the effectiveness and integrity of our systems and program performance. 
The OCSO also maintains its own Quality Assurance Inspections program 
that evaluates the physical protection strategies employed at the Port 
Authority. These internal auditing programs allow us to proactively 
identify and mitigate issues and concerns before our adversaries 
exploit them.
    Furthermore, in an effort to ensure independent third-party review 
of our security programs, the Port Authority actively participates in 
the U.S. Department of Homeland Security (DHS) Safety Act program. To 
date, Port Authority received 6 awards for designation and 1 for 
certification at various facilities.
III. The Application of the Multi-Layered Security Approach to PATH
    In 2015, the PATH system carried over 76.5 million passengers; an 
average of 265,000 passengers per day. The security of those passengers 
is paramount.
            Human Assets
    We have a police command dedicated to patrolling the 13 stations 
and 26 miles of track. The PATH police command has grown by 45% since 
January 2002. Policing methods include: Routine uniformed patrols, 
high-visibility emergency service unit random anti-terrorism patrols, 
the deployment of dedicated counterterrorism teams, as well as the 
assignment of explosive detection canine (K-9) units. Police officers 
assigned to these teams and patrols are trained and equipped in the use 
of tactical weapons and equipment to include radiation detection 
capabilities.
    PAPD efforts to secure the PATH system are further supplemented by 
a contract security guard force of over 100 security officers who are 
trained in behavioral recognition techniques and counterterrorism 
awareness. These security officers are posted at critical locations 
throughout the system. They also staff a 24/7 Security Operations 
Center whose core function is to monitor a multitude of CCTV cameras 
and access control and intrusion alarms that span the entire rail 
system. Suspicious activity or other emergency conditions are 
immediately dispatched to PAPD for response.
            Physical Security
    As previously discussed, the Port Authority has made significant 
investments in capital security projects. Specific measures have been 
taken to harden and protect the PATH system from a variety of man-made 
and natural hazards. These projects include right-of-way fencing and 
perimeter protection through the use of bollards, as well as 
infrastructure strengthening to make the PATH tunnels more resilient to 
man-made threats. Redundancy is also a critical part of our 
methodology, and as such we have constructed a new train control 
center. The existing train control center serves as a redundant back-up 
facility and is also used for training personnel.
            Technology
    In addition to CCTV, the Port Authority has invested in other 
security technology such as:
  <bullet> A laser intrusion detection system that helps protect 
        against trespassers entering tunnels from the track.
  <bullet> An extensive and robust card access control system, which 
        restricts access to critical areas to authorized personnel 
        only.
  <bullet> The deployment of sensor and detection devices to help 
        protect against chemical, biological, and radiological threats.
  <bullet> The use of detailed background and criminal history checks 
        as part of a personnel assurance program to include outside 
        contractors and service providers.
  <bullet> The enhancement of public safety communication systems at 
        PATH stations and underground portions of the system. PAPD's 
        intra-operable 800MHz radio system has been installed 
        throughout, enabling PAPD officers responding to an incident 
        from a neighboring command (e.g. Holland Tunnel, Newark 
        Airport, etc.) to talk seamlessly to other PAPD officers 
        assigned to the PATH command. Further, we have deployed antenna 
        networks carrying National Mutual Aid channels in both the UHF 
        and 800MHz bands (``UTAC and 8TAC'') into the PATH underground 
        to assure radio inter-operability with our mutual aid partners, 
        such as NYPD, FDNY, and the city of Jersey City first-responder 
        agencies.
            Quality Assurance and Independent Review
    In addition to our internal Quality Assurance Inspection program, 
the Port Authority participates in the Baseline Assessment and Security 
Enhancement (BASE) program, which is a voluntary program implemented by 
Transportation Security Administration (TSA). The BASE program 
assessment is composed of more than 200 questions that review a transit 
system's security and emergency preparedness posture regarding 17 
Security and Emergency Preparedness Action Items. The TSA awards its 
``Gold Standard'' to transit agencies and passenger railroads that 
achieve the highest rating on the BASE assessment and for building a 
strong security program.
    For 2015, TSA has awarded the PATH Security program its Gold 
Standard for best practices in rail security.
    Furthermore, in 2011, DHS awarded SAFETY ACT designation status to 
a protective system put in place to protect PATH underwater tunnels.
IV. How the Federal Government Can Help?
            Grant Funding
    The Port Authority keeps security as a top priority as evidenced by 
the investments in resources it makes to that purpose. Currently, 
agency-wide, 24% of personnel and 22% of the operating budget is 
allocated to security. Since 2002, $1.2 billion dollars has been spent 
in capital security projects and another $900 million in capital 
security projects have been identified for the coming years. A critical 
resource is the Federal grant funding program. This funding source is 
essential to help us continue to protect our facilities from evolving 
threats.
    A large source of funds for our capital security projects comes 
from the Transit Security Grant Program (TSGP). In 2016, the maximum 
amount of Federal funding through this program was set at $87 million 
Nation-wide for all transit operators. This amount, when distributed, 
can only fund smaller capital security projects. An increase in TSGP 
funding would allow transit operators to pursue larger capital security 
projects that would better reduce the risk to those who use our 
facilities. Additionally, the period of performance for grant funding 
is limited to 3 years, which hinders our ability to plan, design, and 
construct larger-scale projects. An increase in the period of 
performance from 3 years to 5 years would allow us to plan larger-scale 
and more effective capital security projects.
            DHS Science and Technology
    It would be valuable if the DHS Office of Science and Technology 
would publish a guide for review by decision makers that will aid in 
their selection of effective and proven technologies and equipment that 
would better protect the public and the infrastructure they depend 
upon.
V. Closing Remarks
    In closing, I would like to thank the members of the Emergency 
Preparedness, Response, and Communications subcommittee for inviting me 
to testify on behalf of the Port Authority of New York and New Jersey 
regarding this critical topic of protecting our passengers.
    The Port Authority operates the busiest and most important 
transportation facilities in the region, as such, we take on the 
tremendous responsibility of maintaining safety and security. The Port 
Authority will continue to make enhancements to its policing and 
security programs and systems in an effort to stay current and adapt to 
the ever-changing threat landscape. I would like to thank our 
Congressional delegation for their continuing support that allows us to 
better serve our employees and customers and better protect our 
regional critical transportation infrastructure.

    Mr. Donovan. Thank you, sir.
    The Chair now recognizes Chief Diaz for 5 minutes.

 STATEMENT OF RAYMOND DIAZ, DIRECTOR OF SECURITY, METROPOLITAN 
                       TRANSIT AUTHORITY

    Mr. Diaz. Good morning, Chairman Donovan and Ranking 
Members Payne and Coleman and other Members of the 
subcommittee. Thank you for holding this hearing today.
    I want to also thank the entire committee for its continued 
support to surface transportation security and the opportunity 
to discuss security and preparedness at New York's Metropolitan 
Transportation Authority.
    Joining me today is Michael Coan, the chief of department 
of the MTA Police Department.
    I want to begin today by acknowledging the horrific attack 
in Orlando about a week ago. Speaking on behalf of the entire 
MTA, our thoughts and prayers go out to the entire Orlando 
community and everyone affected by the attacks.
    There have been no specific threats to our system related 
to the attack, but we have nevertheless significantly stepped 
up our security efforts, increasing patrols and surveillance in 
order to provide heightened protection across all our agencies. 
The incident serves as a stark reminder that we must continue 
to be vigilant, continue to be alert to the possibility of a 
terrorist attack on our system.
    It also reminds us that it is more important than ever for 
all of us to work together to keep each other safe. The idea is 
a central component of our ``See something, say something'' 
campaign, which we relaunched this year in February.
    Our new campaign incorporates real stories from real New 
Yorkers who have reported suspicious packages or activities, 
and we have added a tagline, ``New Yorkers keep New York 
safe.'' That resonates with me because it is so true. We all 
have a crucial role to play in keeping New York safe.
    I am here representing MTA chairman Tom Prendergast. But 
before I get into some of the topics he suggested I discuss, I 
want to provide some context with some background information 
on my job and the MTA's operation.
    As the MTA director for security, I am responsible for the 
security of the MTA, including coordinating MTA efforts with 
the Department of Homeland Security, FBI, the National Guard, 
the NYPD, and the New York and Connecticut State Police. I 
oversee the MTA Police Department, which has jurisdiction in 14 
counties in New York and Connecticut and patrols a 5,000 square 
mile rail network.
    I am responsible for the implementation and execution of a 
security strategy that offers maximum protection to the public, 
MTA employees, and MTA property. It is a big responsibility. 
Every day, the MTA moves more than 8.7 million people on our 
subway, buses, and commuter rail lines. We are one of the few 
transit systems in the world that operates 24 hours a day, 7 
days a week, 365 days a year.
    Our 7 bridges and tunnels carry nearly 300 million vehicles 
a year. If we were to build our network today, including about 
9,000 rail cars, 5,000 buses, and millions of other assets, it 
would cost almost $1 trillion.
    Protecting millions of people a day and a trillion-dollar 
asset is an enormous task, and I could tell you this. The MTA's 
priority is crystal clear, ensuring the safety and security of 
our customers and employees.
    To protect our customers and assets, the MTA employs a 
multi-layered security strategy. Some strategies, like 
policing, are highly visible. Others are less visible, like 
structural hardening, advances in technology, and improved 
communications.
    The hallmark of our policing strategy is collaboration. Let 
me explain. The NYPD is responsible for patrolling most of our 
heavily-used portion of our network, the New York City subways 
and buses. We work closely with the NYPD to ensure that capital 
investments are consistent with the latest security and 
policing strategies.
    The MTAPD polices our commuter rail system, including Metro 
North Railroad, Long Island Railroad, the two busiest commuter 
rails in the country. We are also responsible for policing the 
Staten Island Railway in Chairman Donovan's district.
    Over the past 15 years, the MTAPD has grown from 494 
uniformed officers to 722 today. In addition, the MTA chairman 
and board have approved the hiring of an additional 46 new 
officers for our counterterrorism deployments. We have 691 
bridge and tunnel officers that patrol our 7 bridges and 
tunnels.
    Fifty explosive canine teams are now deployed throughout 
our system, and we have significantly increased our presence on 
trains and at stations. In support of the canine program, the 
MTA recently opened up a State-of-the-art canine training 
facility. This facility will enhance the canine program and 
allow for training of canines from other law enforcement 
agencies as well.
    In response to the growing threat of active-shooter 
attacks, every single MTA officer receives Transit Security 
Grant Program-funded active-shooter training. In addition, more 
than 60 officers have received on-going heavy weapons training.
    As mentioned previously, we have a robust ``See something, 
say something'' campaign, coupled with security and awareness 
training for our civilians and front-line employees. These 
initiatives encourage vigilance and teach people what to do if 
they see a suspicious package or activity.
    To date, the MTA has trained more than 35,000 front-line 
employees. Recent active-shooter incidents clearly illustrate 
the importance of these awareness initiatives and training. 
Transit Security Grant Program grants also support our ``See 
something, say something'' campaign and also the civil employee 
training.
    Behind the scenes, one critical layer to our security is 
the structural and technological hardening of our 
infrastructure. Since 9/11, the MTA has invested close to $1.4 
billion of local funds toward an aggressive campaign to harden 
our subway and commuter rail systems, as well as our bridges, 
tunnels, and other infrastructure.
    Critical stations in vulnerable areas have been secured 
with electronic security systems consisting of CCTV, intrusion 
detection, access control devices. In addition, we have 
deployed chemical, biological, and radiological detection 
technology at these locations.
    Since 2003, we have benefited from more than $470 million 
from DHS in support of our security program. TSA and FEMA have 
helped us immeasurably with grant allocations and 
reallocations. We are grateful for the support and pleased that 
the initial period of performance for transit security grants 
has been extended to 36 months, which affords us more time 
needed to complete these capital security projects.
    Another layer of our MTA security strategy is communication 
and intelligence sharing. At the Federal level, we have 
excellent working relationship with our DHS partners, 
represented by FEMA and TSA. We regularly attend meetings, 
conference calls, and continually exchange information. When 
potential threats are identified, they are communicated 
immediately.
    We share intelligence with many law enforcement agencies on 
a daily basis through our Interagency Counterterrorism Task 
Force. We also conduct joint patrol initiatives, tabletop 
exercises, and drills with other regional transportation 
services, including Amtrak, the Port Authority of New York and 
New Jersey, New Jersey Transit, the New York and Connecticut 
State Police, and the New York National Guard--State National 
Guard, and the NYPD.
    MTA detectives represent MTA on a number of high-profile 
anti-crime and anti-terrorism groups, including the FBI's Joint 
Terrorism Task Force, the FBI's Cyber Crimes Unit, the High-
Intensity Drug Traffic Area Program, and the Counterterrorism 
Intelligence Division Units. In addition, when activated, the 
MTAPD is represented at emergency operation centers at the city 
and local level and State level.
    I am proud to oversee this system and its proactive and 
accomplished security personnel and look forward to continue to 
work with my colleagues in law enforcement and you in the House 
to keep our customers safe and our system secure.
    Once again, thank you for inviting me to testify today, and 
I am happy to answer any questions you may have.
    Thank you.
    [The prepared statement of Mr. Diaz follows:]

                   Prepared Statement of Raymond Diaz

                             June 21, 2016

    Good morning, Chairman Donovan and Ranking Member Payne, 
and other Members of the subcommittee. Thank you for holding 
this field hearing today. I want to also thank the entire 
committee for its continued support to surface transportation 
security and the opportunity to discuss security and 
preparedness at New York's Metropolitan Transportation 
Authority. Joining me today is Michael Coan, chief of 
department of the MTA Police.
    I want to begin today by acknowledging the horrific attack 
in Orlando about a week ago. Speaking on behalf of the entire 
MTA, our thoughts and prayers go out to the entire Orlando 
community and everyone affected by the attacks.
    There have been no specific threats to our system related 
to the attack, but we've nonetheless significantly stepped up 
our security efforts--increasing patrols and surveillance in 
order to provide heightened protection across all our agencies. 
The incident serves as a stark reminder that we must continue 
to be vigilant . . . continue to be alert to the possibility of 
a terrorist attack on our system. It also reminds us that it's 
more important than ever for all of us to work together to keep 
each other safe.
    This idea is a central component of our ``See Something, 
Say Something'' campaign, which we relaunched this year in 
February. Our new campaign incorporates real stories from real 
New Yorkers who have reported suspicious packages or 
activities, and we've added a tagline--``New Yorkers Keep New 
Yorkers Safe.'' That resonates with me, because it's so true--
we all have a crucial role to play in keeping New York safe.
    I'm here today representing MTA chairman Tom Prendergast, 
but before I get into some of the topics he suggested I 
discuss, I want to provide some context, with background 
information on my job and the MTA's operation.
    As the MTA's director of security, I'm responsible for the 
security of the MTA, including coordinating MTA efforts with 
the Department of Homeland Security, the FBI, the National 
Guard, the NYPD, and the New York and Connecticut State Police. 
I oversee the MTA Police Department, which has jurisdiction in 
14 counties in New York and Connecticut, and patrols a 5,000-
square mile rail network. I'm responsible for the 
implementation and execution of a security strategy that offers 
maximum protection to the public, MTA employees, and MTA 
property.
    It's a big responsibility. Every day, the MTA moves more 
than 8.7 million people on our subways, buses, and commuter 
rail lines. We're one of the few transit systems in the world 
that operates 24 hours a day, 7 days a week, 365 days a year. 
Our 7 bridges and 2 tunnels carry nearly 300 million vehicles a 
year. And if we were to build our network today--including 
about 9,000 railcars, 5,000 buses, and millions of other 
assets--it would cost nearly $1 trillion.
    Protecting millions of people a day and a trillion-dollar 
asset is an enormous task, but I can tell you this: The MTA's 
top priority is crystal clear--ensuring the safety and security 
of our customers and employees. To protect our customers and 
assets, the MTA employs a multi-layered security strategy. Some 
strategies, like policing, are highly visible. Others are less 
visible, like structural hardening, advances in technology, and 
improved communications.
    The hallmark of our policing strategy is collaboration. Let 
me explain. The NYPD is responsible for patrolling the most 
heavily-used portion of our network: New York City subways and 
buses. We work closely with the NYPD to ensure that capital 
investments are consistent with the latest security and 
policing strategies.
    The MTA PD polices our commuter rail system, including 
Metro-North Railroad and Long Island Rail Road--the two busiest 
commuter rail agencies in the country. We're also responsible 
for policing the Staten Island Railway--in Chairman Donovan's 
district. Over the past 15 years, the MTA PD has grown from 494 
uniformed officers to 722 today. In addition, the MTA chairman 
and board have approved the hiring of 46 new officers for 
counterterrorism deployment, and 691 Bridge and Tunnel officers 
patrol our 7 bridges and 2 tunnels.
    Fifty explosive detection K-9 teams are now deployed 
throughout the system, and we've significantly increased our 
presence on trains and at stations. In support of the K-9 
program, the MTA recently opened a state-of-the-art canine 
training facility. This facility will enhance the K-9 program 
and allow for training of canines from other law enforcement 
agencies.
    In response to the growing threat of active-shooter 
attacks, every single MTA PD officer receives Transit Security 
Grant Program-funded Active-Shooter Training. Additionally, 
more than 60 officers have received our on-going heavy weapons 
training.
    As mentioned previously, we have a robust ``See Something, 
Say Something'' campaign, coupled with security awareness 
training for civilian front-line employees. These initiatives 
encourage vigilance, and teach people what to do if they see a 
suspicious package or activity. To date, the MTA has trained 
more than 35,000 front-line employees. Recent active-shooter 
incidents clearly illustrate the importance of these awareness 
initiatives and training. TSGP grants also support our ``See 
Something, Say Something'' campaign and civilian employee 
training.
    Behind the scenes, one critical layer to our security is 
the structural and technological hardening of our 
infrastructure. Since 9/11, the MTA has invested close to $1.4 
billion of local funds toward an aggressive campaign to harden 
our subway and commuter rail systems, as well as bridges, 
tunnels, and other infrastructure. Critical stations and 
vulnerable areas have been secured with electronic security 
systems consisting of CCTV, intrusion detection, and access 
control devices. We've also deployed chemical, biological, and 
radiological detection technology at these locations.
    Since 2003, we've benefitted from more than $470 million 
from DHS in support of our security program. TSA and FEMA have 
helped us immeasurably with grant allocations and 
reallocations. We're grateful for this support, and are pleased 
that the initial ``period of performance'' for transit security 
grants has been extended to 36 months, which affords us the 
time needed to complete TSGP-funded capital security projects.
    Another layer of the MTA's security strategy is 
communication and intelligence sharing. At the Federal level, 
we have an excellent working relationship with our DHS 
partners, represented by FEMA and TSA. We attend regular 
meetings and conference calls, and continually exchange 
information. When potential threats are identified, they are 
communicated immediately.
    We share intelligence with many law enforcement agencies on 
a daily basis through our Inter-Agency Counterterrorism Task 
Force. We also conduct joint patrol initiatives, table-top 
exercises, and drills with other regional transportation 
agencies including Amtrak, the Port Authority of New York and 
New Jersey, New Jersey Transit, the New York and Connecticut 
State Police, the New York State National Guard, and the NYPD.
    MTA PD detectives represent the MTA on a number of high-
profile anti-crime and anti-terrorism groups, including the 
FBI's Joint Terrorism Task Force, the FBI Cyber Crimes Unit, 
the High-Intensity Drug Trafficking Area program, and the NYPD 
Counter Terrorism and Intelligence units. In addition, when 
activated, the MTA PD is represented at Emergency Operations 
Centers at the city and State level.
    I'm proud to oversee this system and its proactive and 
accomplished security personnel, and look forward to continuing 
to work with my colleagues in law enforcement and you in the 
House to keep our customers safe and our system secure. Once 
again, thank you for inviting me to testify today. I'm happy to 
answer any questions you might have.

    Mr. Donovan. Thank you, Chief.
    The Chair now recognizes Chief Trucillo for 5 minutes.

STATEMENT OF CHRISTOPHER TRUCILLO, CHIEF OF POLICE, NEW JERSEY 
                   TRANSIT POLICE DEPARTMENT

    Chief Trucillo. Good morning, Mr. Chairman, Representative 
Payne, Representative Watson Coleman. I welcome the opportunity 
to appear before you today to discuss the challenges of 
securing passengers utilizing surface transportation in New 
York and New Jersey.
    As you mentioned, before joining the Transit Police in July 
2010, I served and had the honor of being the chief of 
department for the Port Authority in New York and New Jersey. 
During my tenure with them, I served as the commanding officer 
of the bus terminal in midtown Manhattan, as well as the 
commanding officer of Newark Liberty International Airport.
    Mr. Chairman, thank you for inviting me to testify at this 
hearing, which is aptly entitled Protecting Our Passengers: 
Perspectives on Securing Surface Transportation in New Jersey 
and New York. We appreciate the important role of this 
committee in matters related to transportation security, and we 
look forward to working with you on these issues.
    New Jersey Transit is the third-largest transit system in 
the country and also the Nation's largest State-wide public 
transit system. Servicing an area of over 5,000 square miles, 
we provide almost 1 million weekday trips on 257 different bus 
routes. We have 3 light rail systems across the State, 11 heavy 
commuter rail lines, and our Access Link program, which serves 
our paratransit community.
    We serve 166 different rail stations across the State of 
New Jersey, 62 light rail stations. We have got more than 
19,000 bus stops linking major points in New Jersey, New York, 
and Philadelphia.
    Mr. Chairman, the transportation services provided by New 
Jersey Transit are vital to the economic well-being of our 
State and this region. We provide an essential service to the 
nearly 10 percent of all New Jersey commuters who use and 
depend on the New Jersey Transit system.
    Mr. Chairman, as you know, transit agencies have unique 
security challenges, due to the large numbers of people we 
serve in publicly accessible facilities traveling on 
advertised, predictable schedules. Just over a week ago, we saw 
the carnage inflicted in Orlando by a radicalized extremist on 
a crowd of people in a nightclub, and earlier this year, the 
attacks in Brussels reminded us once again how mass transit 
systems world-wide continue to be the preferred targets of 
terrorists.
    Our most important priority is keeping our customers and 
employees safe as we continue to provide our essential 
transportation services. Safety and security are the top 
priority for all of us at New Jersey Transit and within the New 
Jersey Transit Police Department.
    Counterterrorism is our department's No. 1 primary mission, 
and Mr. Chairman, we take that mission very seriously. New 
Jersey Transit uses a risk-based approach to maximizing our 
security efforts to protect our trains, buses, and light rail 
vehicles, and stations from all hazards and threats.
    The police department's intelligence section provides the 
agency with strategic-level risk management tools in support of 
our counterterrorism efforts and coordinates all of our 
intelligence collection, analysis, and production efforts, 
including the reporting and monitoring of suspicious activity 
and individuals. We do this in collaboration with the FBI's 
Newark, New York City, and Philadelphia Joint Terrorism Task 
Forces, the U.S. Department of Homeland Security, the New 
Jersey Office of Homeland Security and Preparedness, our 
partners at the NYPD and my partners at this table, and the New 
Jersey State Police Fusion Center run by the New Jersey State 
Police and other partners.
    Mr. Chairman, almost all of our 11,000 employees have 
received security awareness training. From conductors to bus 
operators to office staff, our employees are force multipliers. 
Extra eyes and ears, if you will, for our police department.
    We also work in cooperation with the thousands of 
businesses that are located near all our train stations to know 
what suspicious activity is and to report it. In addition, we 
continue to work closely with first responding agencies at the 
municipal, county, and State levels.
    To give you just an example, several times per year, 
members of New Jersey Transit's police operations and 
administrative staff partner with local police, fire, and EMS 
agencies in advanced incident command training at Texas A&M 
University. To date, more than 500 Transit employees from 
across all business lines and an equal number of our partners 
have participated in these joint exercises.
    In fact, right now this week, we have 65 people at Texas 
A&M and training for the entire week in advanced incident 
command. We are partnering with New Brunswick, New Jersey, 
first responders this week.
    New Jersey Transit also promotes a campaign urging 
customers who see suspicious activity or unattended packages at 
stations, aboard trains or buses, or near facilities to call 
the New Jersey Transit security hotline or to text us at our 
NJTPD text line.
    The New Jersey Transit mobile app for smartphones includes 
convenient one-touch access to call or text the New Jersey 
Transit Police Department directly. So not only can customers 
purchase digital tickets on-line, but with that same app, they 
can also report suspicious activity.
    We investigate all calls. We get back to those who alert 
us, and all information is kept confidential.
    Mr. Chairman, while we do not release details about police 
deployments or specific countermeasures, our uniformed patrol 
officers remain vigilant in monitoring our system, and they are 
supported by plainclothes detectives, anti-crime officers 
throughout the New Jersey Transit system. Our Special 
Operations Division provides enhanced capability to protect and 
respond to terrorism on our system.
    We perform random baggage screening. We also have the 
capability to detect and respond to incidents involving 
chemical, biological, radiological, and explosive materials. 
Our Emergency Service Unit, along with our train patrol units 
and conditions unit, also provides specialized tactical 
response capability and have unique training and capabilities 
specific to the mass transit environment.
    Our canine unit officers, along with their explosive 
detection dogs, perform perhaps some of our most important 
functions. These officers, along with their canine partners, do 
not just work to detect explosives throughout our system, but 
their presence, as we have come to learn, provides an 
effective, visible deterrent against our adversaries.
    To ensure that we are prepared and are able to respond 
adequately to a terrorism incident, the police Office of 
Emergency Management conducts regular drills and exercises that 
ensures that our response to terrorism incidents is both 
effective and well-coordinated with our local, State, regional, 
and our Federal partners. Every member of the department is 
equipped with radiation pagers, and Mr. Chairman, we have 
tripled the number of officers trained in the use of long guns. 
We continue to work closely with TSA's Office of Science and 
Technology as a testbed to test the next generation of 
technology that may be utilized to secure surface 
transportation.
    Mr. Chairman, in light of our Nation's heightened security 
needs, we believe that the increased Federal investment in 
public transportation security by Congress and DHS is critical. 
New Jersey Transit has made great strides in transit security 
improvements in recent years, but much more needs to be done. 
We look forward to building on our cooperative working 
relationship with the Department of Homeland Security and 
Congress to further address these needs.
    On behalf of New Jersey Transit and the New Jersey Transit 
Police Department, I again thank you and the committee for 
allowing me to submit testimony on these critical issues, and I 
look forward to working with you on safety and security issues.
    [The prepared statement of Chief Trucillo follows:]
               Prepared Statement of Christopher Trucillo
                             June 21, 2016
    Good morning Mr. Chairman and Members of the subcommittee, I 
welcome this opportunity to appear before you today to discuss the 
challenges of securing passengers utilizing surface transportation in 
New Jersey and New York.
    Before joining New Jersey Transit in July of 2010 as the chief of 
police for the New Jersey Transit Police Department, I served for 5 
years as the chief of department for the Port Authority of New York and 
New Jersey Police Department. During my 23 year career with the Port 
Authority I served as the commanding officer of internal affairs and 
special investigations, the commanding officer of the Port Authority 
Bus Terminal in midtown Manhattan, as well as the commanding officer of 
Newark Liberty International Airport.
    Mr. Chairman, thank you for inviting me to testify at this hearing, 
which has been aptly entitled ``Protecting our Passengers: Perspectives 
on Securing Surface Transportation in New Jersey and New York''. We 
appreciate the important role of this committee in matters relating to 
transportation security, and we look forward to working with you on 
these issues.
                            about nj transit
    NJ TRANSIT is the third largest transit system in the country and 
also the Nation's largest State-wide public transportation system 
serving an area encompassing 5,325 square miles. We provide more than 
938,500 weekday trips on 257 bus routes, 3 light rail lines, 11 
commuter rail lines and through Access Link, our paratransit service. 
We serve 166 rail stations, 62 light rail stations, and more than 
19,000 bus stops linking major points in New Jersey, New York, and 
Philadelphia.
    Mr. Chairman, the transportation services provided by NJ TRANSIT 
are vital to the economic well-being of our State and the region. We 
provide an essential service to the nearly 10 percent of all New Jersey 
commuters who use and depend on the NJ TRANSIT system.
                                overview
    Mr. Chairman, as you know, public transit agencies have unique 
security challenges due to the large numbers of people we serve in 
publicly accessible facilities, traveling on advertised predictable 
schedules. Just a few days ago we saw the carnage inflicted in Orlando 
by a radicalized extremist on a crowd of people in a publicly 
accessible space, and earlier this year the attacks in Brussels 
reminded us once again how mass transit systems world-wide continue to 
be preferred targets of terrorists.
    Our most important priority is keeping our customers and employees 
safe as we continue to provide our essential transportation services. 
Safety and security are the top priority for all of NJ TRANSIT and 
within the New Jersey Transit Police Department--counterterrorism is 
our primary mission, and we take that mission very seriously.
    NJ TRANSIT utilizes a risk-based approach to maximizing our 
security efforts to protect our trains, buses, light rail vehicles, and 
stations from all hazards and threats. The Police Department's 
Intelligence Section provides the agency with strategic level risk 
management tools in support of our counterterrorism efforts and 
coordinates intelligence collection, analysis, and production efforts, 
including the reporting and monitoring of suspicious activity and 
individuals, with the FBI's Newark, New York City, and Philadelphia 
Joint Terrorism Task Forces, the U.S. Department of Homeland Security 
and the TSA, the New Jersey Office of Homeland Security and 
Preparedness, the NYPD, the New Jersey State fusion center, and other 
partners.
    Almost all of our 11,000 employees have received security awareness 
training. From conductors to bus operators to office staff, our 
employees are ``force multipliers''--extra eyes and ears for our 
police. We also work in cooperation with the thousands of businesses 
located near train stations to report suspicious activity.
    In addition, we continue to work closely with first responding 
agencies at the municipal, county, and State levels. To give you just 
an example, several times per year members of New Jersey Transit's 
police, operations, and administrative staff partner with local police, 
fire, and EMS agencies in Incident Command Training at Texas A&M 
University. To date, more than 500 transit employees and an equal 
number of our partners have participated in these joint exercises.
    NJ TRANSIT also promotes a campaign urging customers who see 
suspicious activity or unattended packages at stations, aboard trains 
or buses, or near transit facilities to call the NJ TRANSIT security 
hotline at 1-888-TIPS-NJT, text us at NJTPD or notify a New Jersey 
Transit Police officer. The NJ TRANSIT mobile app for smartphones 
includes convenient one-touch access to call or text the New Jersey 
Transit Police Department directly. So, not only can customers purchase 
digital tickets by using the app, they can also easily say something if 
they see something. All calls are investigated, and all information is 
confidential.
    Mr. Chairman, while we do not release details about police 
deployments or specific countermeasures, our uniformed police patrol 
officers remain vigilant in monitoring our system and they are 
supported by plainclothes detectives and anti-crime officers throughout 
the NJ TRANSIT system.
    Our Special Operations Division provides enhanced capabilities to 
protect and respond to terrorism on our system. Random baggage 
screening performed by our Emergency Services Units provides us with 
the capability to detect and respond to incidents involving chemical, 
biological, radiological, and explosive materials. ESU along with our 
Train Patrol Units and Conditions Tactical Unit also provide a 
specialized tactical response capability with unique training and 
capabilities specific to the mass transit environment.
    Our canine unit officers along with their explosive detection dogs 
perform perhaps some of our most important functions. These officers 
along with their canine partners do not just detect explosives 
throughout the NJ TRANSIT system but their presence provides an 
effective visible deterrent against our adversaries.
    And to ensure that we are prepared for and are able to respond 
adequately to a terrorism incident, the NJTPD Office of Emergency 
Management conducts regular drills and exercises that ensures that our 
response to terrorism incidents is both effective and well-coordinated 
with our local, State, regional, and Federal partners.
    Every member of the department is equipped with radiation pagers 
and we have tripled the number of officers trained in the use of long 
guns. We continue to work closely with the TSA's Office of Science and 
Technology to test the next generation of technology that will be 
utilized to secure surface transit.
                               conclusion
    Mr. Chairman, in light of our Nation's heightened security needs, 
we believe that increased Federal investment in public transportation 
security by Congress and DHS is critical. NJ TRANSIT has made great 
strides in transit security improvements in recent years, but much more 
needs to be done. We look forward to building on our cooperative 
working relationship with the Department of Homeland Security and 
Congress to further address these needs. On behalf of NJ TRANSIT and 
the New Jersey Transit Police Department, I again thank you and the 
committee for allowing us to submit testimony on these critical issues, 
and look forward to working with you on safety and security issues.

    Mr. Donovan. Thank you, Chief.
    The chair now recognizes Chief Conway for 5 minutes.

   STATEMENT OF MARTIN CONWAY, DEPUTY POLICE CHIEF, NATIONAL 
             RAILROAD PASSENGER CORPORATION--AMTRAK

    Mr. Conway. Good morning, Chairman Donovan, Ranking Member 
Payne, and Members of the committee.
    I am Deputy Chief Martin Conway, and it is an honor to 
appear before you today to discuss our region's coordinated 
preparations to secure vital transportation systems.
    Amtrak is America's railroad, serving more than 500 
communities in 46 States, carrying over 30 million travelers a 
year. The Amtrak Police Department was created to protect 
employees, passengers, stations, rolling stock, and critical 
infrastructure.
    Uniformed patrol is our most visible presence, and they 
perform traditional policing. Our special operations unit 
performs station searches, performs counter surveillance, 
conducts random passenger bag screening, patrols the rights-of-
way, and provides dignitary protection. Our canine program, 
which consists of both conventional and vapor-wake detection 
dogs, average over 1,000 train rides a month.
    We coordinate with numerous local, State, and Federal 
agencies. Members from APD's intelligence unit are assigned to 
the FBI National Joint Terrorism Task Force, as well as 
regional joint terrorism task forces, including the New York 
JTTF.
    Major stations like Newark Penn Station and New York Penn 
Station connect with buses, subways, and commuter rail. The 
porous environment, meaning easy access, is an advantage for 
travelers, but a vulnerability from a security point of view. 
It is, therefore, of critical importance that we work closely 
with our transportation partners and their police forces to 
ensure that our information sharing and quick reaction 
capabilities are sufficient to keep us ahead of any threat.
    While small stations are frequently unstaffed, they provide 
access to major cities, and we must work closely with local 
police to ensure the same type of cooperation. This is a 
particularly important function here in the Northeast, where 5 
of Amtrak's 10 busiest stations are located. The Northeast 
Corridor carries more than 220 million riders a year.
    Many railroad stations are a part of the urban fabric of 
city centers, with a tremendous volume of pedestrian traffic. 
New York Penn Station, for example, hosts more passengers than 
LaGuardia, JFK, and Newark airports combined.
    To ensure the necessary level of coordination and 
information sharing, Amtrak has partnered with the NYPD and TSA 
to form Operation Rail Safe, a regional and now National 
alliance that includes Federal, State, local railroad and 
transit police agencies. Operation Rail Safe, started in May 
2010, functions at several levels, the most visible being 
tactical deployments at stations and along the right-of-way to 
exercise our incident response and counterterrorism 
capabilities.
    Operation Rail Safe has significantly improved cooperation 
among participating agencies, and that relationship has, in 
turn, provided a foundation for training opportunities that 
have so far been extended to over 250 public safety agencies.
    Screening every passenger prior to boarding a train, as the 
airports do, would require resources and technologies that rail 
properties don't possess and probably could not afford. We do, 
however, employ a multi-layered approach while retaining robust 
capability to surge our resources and leverage our 
partnerships.
    We coordinate with other law enforcement agencies and the 
intelligence community to respond to threats and adapt tactics 
in anticipation of potential new threats. We have also trained 
Amtrak employees and passengers to spot and report suspicious 
behaviors via phone or text.
    The ability to leverage our skilled work force contributes 
significantly to our safety and security. Our chief often says 
aviation gets billions and rail gets millions. Over the years, 
Amtrak has received varied levels of funding from Congress. 
Prior to 2012, Amtrak received over $20 million a year from the 
Intercity Passenger Rail Grant Program. But in the past several 
cycles, that has been reduced to about $10 million a year.
    Amtrak security would benefit from a restoration of these 
funds to the $20 million level and a discussion on future 
investment and eligibility for other programs. I look forward 
to answering any questions you might have regarding rail 
transportation security.
    Thank you.
    [The prepared statement of Mr. Conway follows:]
                  Prepared Statement of Martin Conway
                             June 21, 2016
    Good morning Chairman Daniel Donovan, Ranking Member Donald Payne, 
Jr., and Members of the committee. Thank you very much for the 
invitation to speak today. Amtrak takes its responsibility to protect 
its riders seriously, and on behalf of Mr. Boardman, and the men and 
women of the Amtrak Police Department (APD), I'm Martin Conway, deputy 
of chief of police for Amtrak and it's an honor to appear before you 
today on behalf of the men and women of Amtrak to discuss our region's 
coordinated preparations to secure vital transportation systems. I've 
been with Amtrak for 5 years and prior to that, I was with the NYPD for 
26 years. While with NYPD, I served as commanding officer of several 
commands within the bureaus, including the Transit Bureau; my last 
assignment was a 5-year stint as an inspector in the Counterterrorism 
Division, where I was responsible for coordinating all counterterrorism 
measures within the city subway system.
    Amtrak is America's Railroad, serving more than 500 communities in 
46 States, carrying over 30 million travelers a year. APD was created 
to protect employees, passengers, stations, rolling stock, and critical 
infrastructure. Uniformed officers are the most visible presence, but a 
Special Operations capability performs station surges and counter 
surveillance, conducts random passenger bag screening, patrols rights-
of-way and protects dignitaries. Our K-9 program which consists of both 
conventional and vapor-wake detection dogs averages 1,000 train rides a 
month. We coordinate with numerous other local, State, and Federal 
agencies, and officers from Amtrak's Intelligence Unit are assigned to 
the FBI National Joint Terrorism Task Force at the National Counter-
Terrorism Center, as well as regional Joint Terrorism Task forces and 
the police and security organizations for connecting transit modes.
    A high level of cooperation and coordination is particularly 
important, because more than half of all Amtrak stations feature some 
form of connecting transportation service, and major stations like 
Newark Penn or New York Penn Station are multi-modal, hosting busses, 
subways, and commuter rail. Passenger rail security differs 
fundamentally from aviation security. The nodal aspect of our stations, 
combined with offices, food courts, and retail establishments, makes a 
major urban station into a high-traffic location. Daily commuting 
cycles require a fundamentally different security solution than 
airports, because urban terrain is different, and rail journeys are an 
organic part of our travelers' daily schedule. The very high degree of 
connectivity between our modes is an advantage for travelers, but a 
vulnerability from the security point of view, and it is therefore of 
critical importance that we work closely with our modal connections and 
their police forces, to ensure that our information-sharing and quick 
reaction capabilities are sufficient to keep us ahead of any threat.
    While small stations (both rural and outlying commuter stops) are 
frequently unstaffed, they provide access and connectivity to major 
cities, and we must also work closely with local police to ensure the 
same type of cooperation. This is a particularly important function 
here in the Northeast, where 5 of Amtrak's 10 busiest stations are 
located; the NEC carries more than 220 million riders a year. Amtrak 
serves more than 520 stations in 46 States, about a hundred more than 
the total count of airports that host scheduled domestic air service in 
the 48 contiguous States. Many railroad stations are a part of the 
urban fabric of city centers, with a tremendous volume of traffic. New 
York Penn Station, for example, hosts more rail travelers annually than 
the La Guardia, JFK, and Newark Airports together, a combination of 
Amtrak and commuter rail passengers--and that total doesn't include all 
of the subway and bus riders who pass through the station without 
taking a train.
    To ensure the necessary level of coordination and information 
sharing, Amtrak has partnered with NYPD and the TSA to form ``Operation 
RAILSAFE,'' a regional alliance that includes Federal, State, local, 
railroad, and transit police organizations. RAILSAFE functions at 
several levels, the most visible being tactical deployments at stations 
and along the right of way to exercise our incident response and 
counterterrorism capabilities, and we also conduct coordinated efforts 
such as heightened station patrols, increased security presence on 
trains, K-9 explosive sweeps, random bag inspections, and 
countersurveillance in an effort to reassure the public, display our 
capabilities, and make it more difficult for a would-be attacker to 
what the environment will look like at any particular time or place. 
RAILSAFE has significantly improved cooperation among participating 
agencies, and that relationship has in turn provided the foundation for 
training opportunities that have so far been extended to 56 separate 
agencies.
    Terrorist tactics continue to evolve, and we must keep pace. U.S.-
based extremists will continue to pose the most frequent threat to the 
U.S. homeland. As the tragic attacks in Boston, Garland, Texas, and in 
New York have shown over the last several years, the new terrorist 
threats are already here. Either alone or in small groups, with the 
ability to mask the extent of their radicalization, these individuals 
represent the most lethal of threats. U.S.-based jihadist terror cases 
increased more in 2015 than in any full year since 2001. From ``lone-
wolf'' attackers to ISIL radicals, we see a greater likelihood of 
attack than we have in years. The internet and cyber space have become 
the new recruiting ground and the new battle-space. Aided by the 
internet and social media, ISIL has featured plans to kill U.S. 
soldiers or law enforcement personnel and the recent attacks in France 
and against tourists in Tunisia demonstrate the threat is increasing.
    Screening every passenger prior to boarding a train, as the 
airports do would require resources and technology that rail properties 
don't possess and probably couldn't afford. We do however, employ a 
variety of tactics to surveil key infrastructure and stations, while 
retaining robust capability to surge our resources and leverage our 
partnerships in unpredictable ways to complicate the task for a would-
be attacker. We coordinate with other law enforcement agencies and the 
intelligence community to respond to threats and adapt tactics in 
anticipation of potential new threats. We have also trained Amtrak's 
employees and passengers to spot and report suspicious behaviors via 
phone or text. The ability to leverage our skilled workforce 
contributes significantly to our safety and security.
    Our chief often says `` . . . aviation gets billions and rail gets 
millions'' and the New York Times, recently noted that TSA's $7.55 
billion annual budget translates into a cost of about $10 per 
passenger-trip; that's almost twice Amtrak's total annual budget last 
year. Over the years Amtrak has received varied levels of funding from 
Congress. Prior to 2012 Amtrak received over $20 million from the 
Intercity Passenger Rail grant program but in the past several cycles 
that has been appropriated at $10 million level. Amtrak security would 
benefit from a restoration of these funds and a discussion on further 
future investment and eligibility for other programs.
    I look forward to answering any question you might have regarding 
rail transportation security.

    Mr. Donovan. Thank you, Chief.
    Let me thank all of you not only for your testimony, but 
for the vital service that you provide for all of our 
commuters.
    I remember one time when being on time was the No. 1 
concern for a transportation system. Now it is the protection 
of their commuters, and I thank each of you.
    I recognize myself for questions now, and I throw this out 
to the panel. When I gave my opening statement, I talked about 
how when I first got to Congress I didn't know if we utilized 
the information that we received at hearings from experts like 
yourselves and assured you that your testimony today would be 
brought back to Washington, and myself and other committee 
Members would put it to good use.
    One example of that is Chief Diaz spoke about how we 
expanded the time frame in which you could utilize the moneys 
that you are granted through the Federal grants. Used to be a 
2-year program. Through testimony, through hearing from the 
people on the ground, witnesses, we expanded that to 3 years.
    Now, Chief, I understand that an expansion of up to 5 years 
would be even more beneficial. This way, you could plan for 
long-term projects, and we will bring that back as well.
    Is there anything in the grant program that we could do to 
better it, to enhance it, to make your jobs easier besides more 
resources? Because we could all use more resources, and we 
understand that. But are there things in the program that 
hinder you? Is the program flexible enough for you to utilize 
the moneys to your specific needs, or is it too stringent, too 
structured, that what may be good for the MTA might not apply 
for the Port Authority Police?
    I would like to ask the entire panel this because each of 
you have a different agency that you are trying to get these 
grant moneys for. Sonya, is there?
    Ms. Proctor. Mr. Chairman, at this point, I would defer 
because I think the grantees might have a better perspective at 
the moment.
    Mr. Donovan. Then we will let you respond.
    Mr. Proctor. Yes, sir. Yes, sir.
    Mr. Donovan. Thank you.
    Mr. Belfiore. So I think the Port Authority is finding the 
flexibility that it needs, thank you, other than the items that 
we talked about. We are able to leverage those available funds 
for operational measures in supporting PAPD counterterrorism 
measures, as well as asset hardening. So, so I have no 
additional recommendation.
    Mr. Donovan. The expansion of time, though, would be very 
helpful?
    Mr. Belfiore. It would. You know, the Port Authority has 
its own process for moving large-scale capital projects 
through, which, you know, would help us accommodate that. But 
it would allow us to take on, you know, larger-scale and 
longer, more forward-looking capital projects if possible.
    Mr. Donovan. I always thought that the people who set the 
time frame never went through a procurement process with the 
city of New York.
    [Laughter.]
    Mr. Donovan. Chief, is there anything other than the time 
frame that would be helpful to you?
    Mr. Diaz. The time frame was it for us, and if it could be 
expanded it would be great because by the time you do design 
and then you build the project, it takes a lot of time. So 
sometimes in some grant periods, we will just put in for 
design, and then, hopefully, for the next grant period, we can 
then put in for construction. So if that time frame is 
expanded, that would be helpful.
    The other thing is we have a great relationship with our 
DHS partners, FEMA and TSA. So we have a lot of conversations 
we put in for our grant applications, and they are very, very 
good at giving us guidance and where we should put our moneys.
    Mr. Donovan. The definition of the grants is flexible 
enough that you are not trying to squeeze something in that 
wouldn't be your preference? The grant definitions are flexible 
enough that you could utilize it for different projects?
    Mr. Diaz. Yes, they are. Yes, sir.
    Mr. Donovan. Chief, do you have anything?
    Chief Trucillo. I concur with my colleague from the Port 
Authority that in capital investment, the increase from 3 to 5 
years would make a significant difference and enable us to look 
at more capital infrastructure protection than we presently do.
    I also would be remiss if I didn't commend TSA for not 
treating our region as a cookie cutter the same as across the 
entire Nation. They have been very good about allowing us to 
look at where our needs are operationally and to utilize our 
specific grants to help us cover operational costs that would 
otherwise be very problematic within our individual agencies.
    The only other thing, Mr. Chairman, I would like to mention 
is that we have done a tremendous job in our individual 
agencies with the grant program to buy down risk. We--I know I 
could speak for my agency--have seen a tremendous drop in risk 
based on what we have been able to accomplish and only 
accomplish through the grant program.
    I will give you an example. Cameras. But those cameras, 
over 4,000 of them, which we have across our system, have a 
lifespan. So the ability to replace, sustain, maintain becomes 
very critical. So to be able to do that with the grant program, 
for my purposes, would be very significant and helpful.
    Mr. Donovan. Be able to replace perishable items?
    Chief Trucillo. Correct.
    Mr. Donovan. Thank you, Chief.
    Chief, is there anything?
    Mr. Conway. Probably nothing to add that hasn't already 
been said. But I do know from attending meetings that time 
constraint for people who write these grants, as we know, 
things don't happen as quickly as we would like them, 
especially when it comes to capital improvements, cameras, 
bollard systems. And as you said, in New York City and Penn 
Station, it is time-consuming. So I think that would help all 
of us.
    Mr. Donovan. All right. Great. Thank you.
    Many of you mentioned the ``See Something, Say Something.'' 
Is the program successful? Do people report things? I was just 
very curious about it, and I have all of you here. Do we have 
any success stories?
    Mr. Diaz. Well, Congressman, just this past weekend, one of 
our MTA employees saw somebody suspicious on a platform wearing 
an MTA Metro North vest, called the police, and it turned out 
it was somebody that shouldn't have been where he was, and we 
challenged them. He wound up being arrested. So people 
definitely see things, call us, and we take action on it.
    Mr. Donovan. That is great. Thank you.
    My time has expired. The Chair now recognizes the Ranking 
Member of this committee, my good friend from New Jersey, the 
gentleman from New Jersey, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Ms. Proctor, as we discussed yesterday in my office, I am 
really concerned about the delay in the TSA's implementing 
surface transportation security regulations under the 9/11 Act, 
and you were able to explain where we are and what is in. Just 
for the committee and testimony, could you just explain where 
we are in the time line and the anticipated completion, 
whatever the challenges have stalled this process?
    Ms. Proctor. Yes, sir, Representative Payne.
    We recognize, obviously, the delay that you are addressing, 
and the completion of those requirements in the 9/11 Act are a 
high priority for Administrator Neffenger. As we discussed 
yesterday, we have under way now the effort to complete the 
remaining portions of those requirements.
    I think it is important to note that the 9/11 Act included 
42 requirements, some which had more than one section. Of the 
42, we have completed 91 percent of those requirements, and we 
are working on the remaining 3 at this point.
    The administrative rulemaking process in the Federal 
Government is a lengthy, complex process, and it doesn't just 
apply to TSA. It applies to all Federal agencies. But it is a 
very--it is a very cumbersome process, and we are working 
through that process now. The standards for rulemaking are very 
high. So we are working to meet those standards.
    We recognize that implementing standards will have an 
economic impact as well. So we have to take all of that into 
consideration, but we are working diligently to complete the 
requirements in the 9/11 Act.
    But in the interim, while we are working on those, we also 
have in many ways met the spirit of the 9/11 Act with the 
agreement that we have with our industry partners on the 
security action items, which have heightened the level of 
security in all of our transit systems. Those 17 security 
action items form the basis of the assessments that have been 
referenced here, the base assessments.
    Those 17 security action items have helped to raise the 
security bar across mass transit Nation-wide. So while we work 
to complete those requirements of the 9/11 Act, it is important 
to note--we would certainly like to note for everyone that we 
have been working hard to raise the security bar, and we 
believe that we have done that with the security action items 
while we continue to work to complete the 9/11 Act 
requirements.
    Mr. Payne. Thank you.
    You know, as I think about this, our transit employees are 
on the front lines identifying and responding to incidents on 
our systems. What kind of security training do you provide for 
your employees, and how do you leverage them in your plans to 
prevent and respond to transit incidents? Mr. Conway.
    Mr. Conway. Well, I know Amtrak, all of our employees 
receive a daily bulletin. We send out daily tips, what things 
to look for. That is sent out email. So in crew rooms, for 
example, at New York Penn Station, those would be posted before 
crews take their assignments on a train.
    Over the last 2 years now or so, we have started active-
shooter training for our employees, both train crews and office 
workers. That was in response to, obviously, things that we are 
seeing in the terrorism world and workplace violence type-of 
situations.
    Can we do more? I think we need to do more. Funding, 
obviously, would help something like that. Because even when we 
provide free training, we need--we have got to backfill people. 
A training crew comes off a train to go to training, somebody 
has got to take their place. So even free training costs. So, 
again, funding--I know we are probably all looking for 
additional funding, and everyone is always asking for it. But 
there is a legitimate reason for that.
    Mr. Payne. Thank you.
    Mr. Trucillo.
    Chief Trucillo. Congressman, as I had mentioned, New Jersey 
Transit has over 11,000 employees. To date, we have trained 
close to 10,000 of our employees in behavioral detection. 
Again, this is not looking at who a person is, but this is 
about what a person is doing. Is their behavior suspicious?
    We also, after the events in Orlando, will get our 
intelligence unit to put a relevant bulletin out, and that goes 
out to all 11,000 employees to make them aware of the 
circumstances, to remind them in this case about their 
training, which they have all received about active shooter--
run, hide, fight--and reminding them what they need to look for 
and what their protocols are, God forbid they find themselves 
in that situation.
    I think we need to continually engage. Last week, we were 
involved with the rail side of New Jersey Transit in gaming out 
an incident, an active-shooter incident on one of our trains. 
As you know, Congressman, our trains, on a typical rush hour, 
move upwards up to 1,200 to 1,300 people on a train on the 
Northeast Corridor that moves into and out of Penn Station in 
New York.
    So those are the kind of things that we are continually 
working on. We are continually trying to look at what our 
response would be in those situations.
    I mentioned to you that we have a group down at TEEX now, 
and that is the exact scenario, Congressman, that they are 
working on now as we sit here today.
    Mr. Payne. Thank you.
    Mr. Diaz. Congressman, we look at our employees and our 
ridership as a force multiplier. We have a limited number of 
law enforcement personnel, but we have large numbers of 
ridership, large numbers of employees that see things out 
there.
    So we have an aggressive training program. We have trained 
over 35,000 of our front-line employees to identify suspicious 
behaviors and how to report those suspicious behaviors. We keep 
refreshing our ``See Something, Say Something'' campaign for 
our ridership, which is effective.
    For our office employees, we have our workplace violence 
instructions on what they should do--the run, hide, and fight 
procedure and other things that we put in place for our office 
employees.
    Mr. Belfiore. So our facility operators and employees are 
trained through our exercises and drills in response. But 
taking a page from Chief Trucillo and Chief Diaz is in post-
Brussels environment, we are going to go forward and train our 
employees in 3 components of a training.
    One will be what to see, what to say, who to say it to, and 
how to say it so that we have more effective kind of force 
multipliers that are looking--you know, who truly understand 
what to look for and what to report. To provide each employee 
with what to do in an active-shooter situation. So the run, 
hide, fight curriculum that DHS has put forward.
    Then finally, an OEM component that would be how to take 
care of yourself and your family in the event of a natural 
weather emergency so that you can, you know, respond to take 
care of others. That is grant-funded, by the way. We have the 
approval to spend grant funding to support that effort.
    Mr. Payne. Thank you.
    Mr. Chairman, I will yield back. Thank you for your 
graciousness in allowing me the extra time.
    Mr. Donovan. The Chair now recognizes the gentlewoman from 
New Jersey, Representative Watson Coleman, for 5 minutes.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Ms. Proctor, you are--your agency is responsible for 
surface transportation. So that not only includes commuter 
transportation, but that is, you know, the freight that goes on 
the rails, right?
    Ms. Proctor. Yes, ma'am. That is correct.
    Mrs. Watson Coleman. Buses?
    Ms. Proctor. Yes, ma'am.
    Mrs. Watson Coleman. What about trucks on the highways?
    Ms. Proctor. Commercial trucks, yes, ma'am.
    Mrs. Watson Coleman. So what is the point, what is the 
touch point for coordination in overseeing possible problems 
and risk associated particularly with the commercial trucks? 
Because I will tell you, coming here, I was in traffic, and all 
around me was trucks.
    I am thinking this is a great opportunity for some 
nefarious activities if someone had that in mind. What is the 
coordinating element with that part of the surface 
transportation network?
    Ms. Proctor. In Surface Division, one of the areas that I 
am responsible for, it is a highway motor carrier office, which 
comes under Surface Division, and we work with the Federal 
highway motor carrier unit to coordinate our efforts. Their 
primary function is safety. So they design the safety 
regulations, hours of work and the safety-focused regulations.
    We have security-focused regulations. So we work very 
closely with the trucking associations, American Trucking 
Association, for example, the Operators of Independent--OIDA, 
Operation of Independent Drivers Association.
    Mrs. Watson Coleman. Let me ask you a question. How do you 
know who is driving these trucks?
    Ms. Proctor. The drivers of those trucks are required to 
have commercial driver's licenses and their CDL licenses. So 
there is a process that they have to go through, a testing 
process to acquire that. Every State regulates that.
    Mrs. Watson Coleman. Do you know whether or not they have 
got background checks that would give us any indication of, you 
know, sort-of associations, affiliations of that nature that 
could be harmful or dangerous?
    Ms. Proctor. There are some truck drivers that are required 
to have Transportation Worker Identification Credentials, TWIC, 
cards if they serve a maritime facility, a port facility. Other 
than those that are required to have the TWIC card, they would 
not have a required vetting process, but many do have that TWIC 
card.
    Mrs. Watson Coleman. So another interesting thing I read is 
that you also have responsibility for oversight of the 
transporting of natural gas through pipelines.
    Ms. Proctor. Yes, ma'am. That is correct.
    Mrs. Watson Coleman. So how do we do that?
    Ms. Proctor. We have a pipeline office as well, and we work 
very closely with the pipeline associations. We recently had a 
hearing in Washington on the pipeline transportation issue. But 
we work very closely with the pipeline associations, and 
through our work with them, voluntary guidelines have been 
developed. So they have agreed to follow guidelines that were 
developed in conjunction with the pipeline operators, and those 
guidelines function as essentially standards.
    We conduct assessments with them. We conduct assessments at 
critical facilities, and we conduct corporate security reviews. 
So we have both corporate security reviews and critical 
facility security reviews with the pipeline community.
    Mrs. Watson Coleman. Thank you. Thank you.
    I have a question for New Jersey Transit and Amtrak. I 
represent the 12th Congressional District. So I have the 
Princeton station, train station. I also have the large capital 
station in Trenton, and Trenton is a station that has New 
Jersey Transit, Amtrak, and it has SEPTA. But we don't get the 
kind of grants and support in that part of the State as we do 
in the northern part of the State.
    So my question to Amtrak and to New Jersey Transit is to 
what extent are resources being utilized to protect those 
stations and the riders of those stations, particularly the 
Trenton train station?
    Chief Trucillo. All of the training that we give to the 
agency is given to the cadre of officers and civilian employees 
who work in Trenton as well, and we are able, we being New 
Jersey Transit, to participate in the grant program for the 
greater Philadelphia region. So we get that opportunity.
    Congresswoman, we also train with SEPTA and our greater 
Philadelphia partners, to include Amtrak in Trenton, in drills 
and exercises in that region. So what we are doing in the north 
part of the State, we are mirroring in the Trenton area as well 
for that key transportation facility in our State's capital.
    Mrs. Watson Coleman. Mr. Conway.
    Mr. Conway. Yes, from Amtrak, we are pretty limited in our 
responsibilities at Trenton. Our police officers will take 
train rides and pretty much turn around at Trenton. The 
policing of the station itself is left to New Jersey Transit 
police. In return, what happens in New York Penn Station, 
although we serve thousands of New Jersey Transit commuters, 
the Amtrak polices the New Jersey Transit side of Penn Station.
    So you won't--unless there is a special event or something 
special going on, you will not see New Jersey Transit police in 
Penn Station. They come over for special events--the Pope, 
Super Bowl, New Year's Eve, St. Patrick's Day, events like 
that.
    So, again, New York Penn Station, New Jersey Transit side 
policed by Amtrak. The opposite is true for the most part at 
Trenton.
    Mrs. Watson Coleman. OK. Thank you. I yield back.
    Mr. Donovan. The gentlewoman yields back.
    I want to thank the witnesses for their testimony. Beside 
your testimony, though, I want to thank you for the efforts 
that you perform every day on behalf of our commuters and our 
families, and I want you to bring back, on behalf of this 
Congress, our thanks for the men and women who work for you, 
the members of the service. Tell them to continue to do the 
great job they are doing, to do it safely.
    This panel is dismissed. The clerk will prepare the witness 
table for our second panel.
    Thank you.
    [Pause.]
    Mr. Donovan. I would like to welcome our second panel to 
today's hearing and thank them for their participation.
    Mr. Greg Kierce serves as director of Jersey City--excuse 
me. Serves as the director of the Jersey City, New Jersey, 
Office of Emergency Management and Homeland Security. In this 
capacity, he is responsible for the city's response to 
disasters and manages the city's homeland security grant funds.
    Sergeant Kierce previously served in the New Jersey State 
Police--excuse me, Jersey City's police department, and I also 
want to note that this is his third appearance before our 
subcommittee, actually the second in this Congress.
    Welcome again, Sergeant.
    Mr. Kierce. Thank you, Mr. Chairman.
    Mr. Donovan. Mr. Rick Sposa oversees emergency medical 
service operations at the Jersey City Medical Center. In this 
capacity, he is responsible for the dispatch center and the 
hospital's emergency preparedness program.
    Additionally, Mr. Sposa is an adjunct professor at the 
Texas A&M Engineering Extension Services and a member of the 
National Domestic Preparedness Consortium. He previously served 
in the Borough of Norwood Office of Emergency Management.
    Welcome, sir.
    Mr. Donovan. Lieutenant Vincent Glenn serves as commander 
of the Jersey City Police Department's Emergency Services Unit. 
He is also a member of the New Jersey State Render Safe Task 
Force, the FBI Weapons of Mass Destruction Stabilization Team, 
and the Jersey City Medical Center Paramedic Education Advisory 
Board.
    Welcome.
    Mr. Glenn. Thank you, sir.
    Mr. Donovan. Mr. Richard Gorman serves as a captain in the 
Jersey City Department of Fire and Emergency Services. In this 
capacity, he is responsible for the Jersey City Metropolitan 
Medical Response System and New Jersey Task Force One Urban 
Search and Rescue Team.
    Welcome, sir.
    Mr. Gorman. Thank you.
    Mr. Donovan. Mr. Mike Mollahan serves as trustee and 
legislative director on the board of the Port Authority Police 
Benevolent Association. Mr. Mollahan joined the Port Authority 
Police Department in 2002. He began his law enforcement career 
with the NYPD in 1998.
    Welcome, sir.
    Mr. Mollahan. Thank you.
    Mr. Donovan. The witnesses' full written testimony will 
appear on the record. The Chair now recognizes Sergeant Kierce 
for 5 minutes.

   STATEMENT OF SERGEANT W. GREG KIERCE, DIRECTOR, OFFICE OF 
  EMERGENCY MANAGEMENT AND HOMELAND SECURITY, CITY OF JERSEY 
                        CITY, NEW JERSEY

    Mr. Kierce. Chairman Donovan, Ranking Member Payne, Members 
of the subcommittee, Representative Bonnie Watson Coleman, 
thank you for affording me the opportunity to appear before you 
this morning.
    After every major terrorist attack in any part of the 
world, security officials and the American public alike turn to 
the question of what can be done to deter, prevent a similar 
attack from occurring here? Unfortunately, it requires a major 
disaster to arouse concern sufficiently to mobilize the 
political will to take needed action.
    Useful things are often accomplished in the shadow of 
tragedy. It is not because those charged with security are 
unable to imagine what terrorists might do. It is rather that 
people seldom support costly and potentially disruptive 
measures to protect them against things that haven't occurred.
    The reality is because terrorists can attack anything, 
anywhere, anytime, while we cannot protect everything, 
everywhere, all the time, security tends to be reactive. 
Certainly, we must try to protect the targets that terrorists 
show a proclivity to attack.
    Terrorist attacks on public transportation are nothing new. 
Since the early 1990's, those concerned with security of public 
surface transportation have been increasingly worried that 
trains and buses were becoming highly-attractive targets for 
terrorists bent on body counts. For those determined to kill in 
quantity and willing to kill indiscriminately, trains, subways, 
and buses are ideal targets. They offer terrorists easy access 
and escape, and congregations of strangers guarantee anonymity.
    Approximately one-third of terrorist attacks world-wide 
target transportation systems, with public transit the most 
frequent. An analysis of more than 22,000 terrorist incidents 
from 1968 through 2014 indicated that assaults on land-based 
transportation targets, including mass transit, had the highest 
casualty rates of any type.
    Although major terrorist attacks like those on transit 
systems in other parts of the world have not occurred in the 
United States, chances prove exceedingly high. Heavily-
populated systems that operate on predictable schedules with 
passengers having little or no chance to escape crowded 
stations, buses, trains, and other conveyances make public 
transportation susceptible to acts of terrorism.
    Moreover, many systems are expanding and ridership has 
generally increased, raising more policing concerns. Vehicular 
gridlock, air pollution, expensive parking, and higher gasoline 
prices have made mass transit an attractive option for urban 
dwellers in metropolitan areas.
    Numerous individuals have chosen to leave their vehicles at 
home and subsequently have logged millions of more daily rides 
on mass transit and regional rail. Terrorists and criminals 
continue to think of new schemes in attempts to adjust their 
tactics to thwart law enforcement officials, who, in turn, must 
remain relentless when developing and integrating strategies to 
safeguard the public.
    Surface transportation cannot be protected in the ways that 
commercial aviation is protected. Trains, subways, and buses 
must remain readily accessible, convenient, and inexpensive. 
The deployment of metal detectors, X-ray machines, explosive 
sniffers, and armed guards, which have become features of the 
landscape at airports, cannot be transferred easily to subway 
stations or bus stops. The delays would be enormous and the 
cost-prohibitive. Public transportation would effectively shut 
down.
    Transportation facilities are open public places. Other 
public places that offer terrorists similar body counts--
shopping malls, crowded streets, or the lines of people just 
waiting to get through security measures--are just as 
vulnerable.
    This does not mean that nothing can be done to increase 
surface transportation security. Security officials in 
countries that have been subjected to terrorist attacks have 
developed some effective countermeasures. Good security can 
make terrorist attacks more difficult, can increase their 
likelihood of being detected, can minimize casualties and 
disruption, can reduce panic and reassure passengers.
    Visible security patrols and staff have a deterrent effect. 
Closed-circuit television coverage has been used extensively in 
Europe with good results. Enlisting employees and the public in 
surveillance could also be very effective.
    Much can be done through the design of vehicles and 
facilities to eliminate hiding places, facilitate surveillance, 
and reduce casualties by removing materials that explosions may 
turn into shrapnel or burn with toxic fumes. Adequate 
ventilation to remove deadly smoke, a leading killer in 
tunnels, must be ensured. Safe areas can be created to protect 
passengers during bomb threats.
    Transportation operators, either public commissions or 
private companies, have the front-line responsibility for 
implementing security measures and responding to threats, 
crisis planning, and restoration operations. We must all do 
what we can to enhance the ability of our intelligence efforts 
and law enforcement officials to uncover and thwart terrorist 
plots, increase security around vulnerable targets, and improve 
our ability to respond to attacks when they occur.
    At the same time, we must be realistic about the acceptance 
of risk. We cannot allow fear to become the framework of 
American governance. Ensuring the security of this country's 
critical infrastructure has become even more a priority since 
September 11, 2001.
    To that end, public transportation systems must 
continuously develop and implement programs to protect 
passengers, employees, and property from those individuals who 
wish to do harm. We should be wary of slouching toward a 
security State in which protected perimeters, gates, and guards 
dominate the landscape and irrevocably alter everyday life.
    On behalf of Mayor Steven M. Fulop and the citizens of 
Jersey City, I once again thank you for inviting me here today 
and look forward to working with you in providing a safe and 
secure environment for the citizens which we serve.
    [The prepared statement of Mr. Kierce follows:]
                  Prepared Statement of W. Greg Kierce
                         Tuesday, June 21, 2014
    Chairman Donovan, Ranking Member Payne, and Members of the 
subcommittee thank you for affording me the opportunity to appear 
before you this morning.
    After every major terrorist attack in any part of the world, 
security officials and the American public alike turn to the question 
of what can be done to deter or prevent a similar attack from occurring 
here.
    Unfortunately, it often requires a major disaster to arouse concern 
sufficiently to mobilize the political will to take needed action. 
Useful things are often accomplished in the shadow of tragedy.
    It is not because those charged with security are unable to imagine 
what terrorists might do. It is rather that people seldom support 
costly and potentially disruptive measures to protect them against 
things that haven't occurred.
    The reality is that because terrorists can attack anything, 
anywhere, any time, while we cannot protect everything, everywhere, all 
the time, security, tends to be reactive. Certainly we must try to 
protect targets that terrorists show a proclivity to attack.
    Terrorist attacks on public transportation are nothing new. Since 
the early 1990s, those concerned with the security of public surface 
transportation have been increasingly worried that trains and buses 
were becoming highly attractive targets for terrorists bent upon body 
counts.
    For those determined to kill in quantity and willing to kill 
indiscriminately, trains, subways, and buses are ideal targets. They 
offer terrorists easy access and escape. Congregations of strangers 
guarantee anonymity.
    Approximately one-third of terrorist attacks world-wide target 
transportation systems, with public transit the most frequent. Analysis 
of more than 22,000 terrorist incidents from 1968 through 2014 
indicated that assaults on land-based transportation targets, including 
mass transit, have the highest casualty rates of any type.
    Although major terrorist attacks like those on transit systems in 
other parts of the world have not occurred in the United States, 
chances prove exceedingly high.
    Heavily-populated systems that operate on predictable schedules, 
with passengers having little or no chance to escape crowded stations, 
buses, trains, and other conveyances, make public transportation 
susceptible to acts of terrorism.
    Moreover, many systems are expanding and ridership has generally 
increased, raising more policing concerns. Vehicular gridlock, air 
pollution, expensive parking fees, and higher gasoline prices have made 
mass transit an attractive option for urban dwellers in the 
metropolitan.
    Numerous individuals have chosen to leave their vehicles at home 
and, subsequently, have logged millions of more daily rides on mass 
transit and regional rail.
    Terrorists and criminals continue to think of new schemes and 
attempt to adjust their tactics to thwart law enforcement officials 
who, in turn, must remain relentless when developing and integrating 
strategies to safeguard the public.
    Surface transportation cannot be protected in the same way 
commercial aviation is protected. Trains, subways, and buses must 
remain readily accessible, convenient, and inexpensive.
    The deployment of metal detectors, X-ray machines, explosive 
sniffers, and armed guards, which have become features of the landscape 
at airports, cannot be transferred easily to subway stations or bus 
stops.
    The delays would be enormous and the costs prohibitive--public 
transportation would effectively be shut down.
    Transportation facilities are public places. Other public places 
that offer terrorists similar body counts--shopping malls, crowded 
streets, or the lines of people waiting to get through security 
measures--are just as vulnerable.
    This does not mean that nothing can be done to increase surface 
transportation security.
    Security officials in countries that have been subjected to 
terrorist attacks have developed some effective countermeasures.
    Good security can make terrorist attacks more difficult, can 
increase their likelihood of being detected, can minimize casualties 
and disruption, can reduce panic, and can reassure passengers.
    Visible security patrols and staff have a deterrent effect. Closed-
circuit television coverage has been used extensively in Europe with 
good results. And enlisting employees and the public in surveillance 
can also be very effective.
    Much can be done through the design of vehicles and facilities to 
eliminate hiding places, facilitate surveillance, and reduce casualties 
by removing materials that explosions may turn into shrapnel or that 
burn with toxic fumes.
    Adequate ventilation to remove deadly smoke, a leading killer in 
tunnels, must be ensured. Safe areas can be created to protect 
passengers during bomb threats
    Transportation operators, either public commissions or private 
companies, have the front-line responsibility for implementing security 
measures, responding to threats, crisis planning, and restoring 
operations.
    We must do all we can to enhance the ability of our intelligence 
efforts and law enforcement officials to uncover and thwart terrorist 
plots, increase security around vulnerable targets, and improve our 
ability to respond to attacks when they occur.
    At the same time, we must be realistic about the acceptance of 
risk. We cannot allow fear to become the framework of American 
governance.
    Ensuring the security of this country's critical infrastructure has 
become even more of a priority since September 11, 2001.
    To that end, public transportation systems must continuously 
develop and implement programs to protect passengers, employees, and 
property from those individuals who wish to do harm.
    We should be wary of slouching toward a ``security state'' in which 
protected perimeters, gates, and guards dominate the landscape and 
irrevocably alter everyday life.

    Mr. Donovan. Thank you, Sergeant.
    The Chair now recognizes Mr. Sposa for 5 minutes.

 STATEMENT OF RICHARD SPOSA, OPERATIONS COORDINATOR, EMERGENCY 
            MEDICAL SERVICES, JERSEY MEDICAL CENTER

    Mr. Sposa. Chairman Donovan, Members of the Subcommittee on 
Emergency Preparedness, Response, and Communications, on behalf 
of Barry Ostrowsky, president and chief executive officer of 
RWJ Barnabas Health, I would like to thank you for the 
opportunity to come before you today to discuss first 
responders and their role in supporting the efforts to secure 
transportation in the region.
    I would like to thank the subcommittee for its dedication 
to seeking input from a wide range of stakeholders, including 
first responders, on this critical issue. I hope to show how 
your financial commitment to emergency preparedness have better 
prepared the region and how continued appropriations will 
continue to support the medical surge needs and prepare health 
care systems for any disaster we could face, including a 
transit disaster or attack on its infrastructure.
    Today, I will speak both from the perspective of the pre-
hospital EMS provider, as well as the emergency preparedness 
role in front-line acute care hospitals, and I would not think 
of a more fitting setting to discuss the topic than the city of 
Jersey City, New Jersey.
    It has been nearly 15 years since the deadliest terrorist 
attack on American soil, which occurred a mere 4 miles from 
this spot. I can tell you that we are most certainly better 
prepared today than we were in 2001 because of the development, 
funding, and implementation of Federal programs and local 
initiatives to bolster response capabilities.
    But I would be remiss if I told you there wasn't more work 
to do, more goals to accomplish, and more loops to close. To 
begin, I would like to give you a snapshot of programs that 
exist within the health care community today because of the 
Federal Government's commitment to better preparing the 
community to protect the residents, visitors, and workers in 
New Jersey.
    Since 2003, the Federal Government has invested more than 
$33 million in bolstering health care preparedness in the North 
Jersey UASI region, which includes Jersey City. This money has 
built new programs and provided the basis for some of the most 
unique and forward-thinking solutions to deal with medical 
surge and mass casualty incidents that exist in the country 
today.
    I would like to highlight some significant accomplishments, 
both in the hospital and EMS worlds that indeed make this 
region safer and more resilient in the face of an attack or 
large-scale incident. These programs enhance the ability of EMS 
and hospitals to respond to mass casualty events, pandemic 
events, and acts of terrorism and would have not been possible 
without the funding that was supplied by these important UASI 
grants.
    Hospitals are, by their very nature, considered to be a 
soft target for a number of reasons. The mission of all 
hospitals is to be available to their community 24/7/365. 
Because those in need of aid must have immediate access to 
life-saving care, entry to these facilities can't be hampered 
or restricted.
    Our lights are always on, our doors unlocked, and our 
prominent role in the surrounding community unquestioned. This 
could easily be exploited, and therefore, the need to protect 
an open campus is paramount and a necessary first step to 
providing excellent patient care.
    The trauma centers in the UASI region have been able to 
harden their structures and better protect themselves from 
unwanted attacks through the trauma center target hardening 
grants. These improvements include increased closed-circuit 
television capabilities, the creation of blast buffer zones 
around the structures, the installation of radiation detection, 
and the placement of better access control systems to aid in 
that mission.
    Our hospitals are also better prepared for medical surge 
events as a result of the receipt of the UASI grants. For 
example, each of the 34 hospitals in the New Jersey UASI region 
has been provided with a medical surge trailer designed to 
provide the necessary supplies, tools, and protective equipment 
that would be needed in the face of a medical surge event. The 
coordination and uniform outfitting to each facility would not 
have been possible without an overarching mission directive 
like that from the UASI grant stream.
    In any medical surge event, communication systems and 
modalities will play a crucial role. If you read any after-
action report from an incident or exercise, you will almost 
certainly find multiple references to communication gaps that 
occurred during the event, and UASI has allowed the hospitals 
to bolster their communications capabilities. The 
implementation of a mass notification system that allows 
hospitals to communicate and recall their staff was a key to 
building more resilient hospitals.
    Another major step forward for interoperability and 
communications that was undertaken was the Mutualink system 
that allows for cross-platform, multi-discipline communication 
in real time. This tool will assist with the overall response 
coordination by allowing multiple disciplines' radios, phones, 
and even video feeds to be shared in real time and increase 
capabilities of communications instantly.
    As you can see through these examples, the health-care 
community in the New Jersey UASI region has dramatically 
improved its response capabilities and resiliency since the 
inception of the UASI grant process, and these initiatives 
directly support securing the infrastructure of mass transit in 
the region. Through regular interfaces and exercises with the 
transit community, relationships are built and responses 
refined. The UASI program has directly impacted and improved 
these relationships through mutual training and cross-
discipline planning.
    Turning specifically to our role in protecting and 
responding to emergencies within the transit systems, I want to 
focus on two collaborative endeavors. Our efforts in the 
creation of the passenger rail security plan, as well as our 
work through UASI grants to furnish our partners with 
specialized equipment geared toward transit events.
    First, the passenger rail security plan, which represents 
the most comprehensive initiative undertaken by EMS in New 
Jersey related to the transit system. The plan was developed by 
the New Jersey EMS Task Force, which is a stakeholder group of 
specialized resources, of which Jersey City Medical Center's 
EMS is a charter member.
    The creation of the plan began with a kick-off meeting in 
October 2009 and included nearly 80 representatives from local 
EMS agencies and the State Office of Emergency Management, as 
well as State, Federal, and private planning partners. The task 
force reviewed and analyzed response guidelines, best 
practices, and lessons learned from authorities such as 
Madrid's Emergency Services, the London Ambulance Service, 
District of Columbia Fire and EMS, the Los Angeles Fire 
Department, Jersey City Medical Center EMS, and the Hudson 
County Office of Emergency Management.
    Completed in March 2011, the plan is an unprecedented 
1,238-page detailed document, and as I have mentioned, it 
represents the largest EMS planning project in New Jersey's 
history. Its authors invested more than 10,000 hours of work, 
and more than 70 agencies collaborated between its inception 
and completion. This plan incorporates more than 300 stations 
throughout the State overall.
    The most vulnerable stations, of which there are 38, 
spanning 10 counties, have either ridership of at least 500,000 
per year or attached to critical infrastructure, such as an 
airport, sporting event, or entertainment venue. This plan made 
unprecedented strides in terms of EMS coordination and 
integration with our transit partners.
    Next, we have equipped our partners with specialty 
equipment designed to enable remote access to patients, support 
mass casualty events, and aid in the mass transportation of 
patients. This is critically important, as one of the largest 
challenges that EMS face during mass transit events is the 
availability of access to remote locations.
    When an event occurs away from a station, it can be 
incredibly difficult--it can be incredibly difficult to access 
the incident location. To address this issue in New Jersey, we 
have amassed a fleet of off-road ambulances built specifically 
to access remote locations and remove patients to central 
locations for further treatment and transport.
    These assets allow for the quick extraction of patients 
from remote locations and in time/life critical circumstances 
will mean the different between life and death. New Jersey EMS 
has assembled the largest known fleet of medical ambulance 
buses, which are designed to meet the needs of mass casualty 
events and are capable of transporting up to 22 patients with 
one trip.
    These assets would not have been obtainable without the 
support of UASI dollars coming through the region, and these 
assets have been proven time and time again in the region and 
continue to be a valued resource. Regularly assisting with 
nursing home evacuations and large-scale incidents throughout 
the State, these assets have been put into action on countless 
occasions and transported thousands of patients, allowing for 
quick evacuation and relocation with much less manpower during 
a disaster response. This fleet has become an indispensable 
asset in the region and a model for other locations to emulate.
    Based on some of the examples I provided with you today, 
you can see that hospitals, emergency medical providers, and 
other partners in the region are better prepared to handle 
adverse surge events, such as those that could be created by 
large-scale transit attacks or accidents, as a direct result of 
Federal dollars supplied. But there is more work to do in order 
to continue to ensure we are exceptionally prepared for any 
emergency response.
    This is particularly important as we see our terror threats 
evolving, such as the recent tragedy in Orlando. Our focus must 
be given to new threats, and training and equipment must change 
to meet those new threats.
    We are prepared for the all-hazards approach and have 
already refined our mission to include the latest trends 
throughout the EMS and hospital community by bolstering our 
bleeding control equipment and training and working with our 
partners in law enforcement and fire. To date, the New Jersey 
UASI has already invested nearly $4 million in the rescue task 
force concept and getting the right equipment into the hands of 
those who need it. This is another successful example of how 
these dollars prepare us for these events.
    We are cognizant of the limited resources available and the 
difficult decisions that you must make in Congress on how to 
allocate resources. However, because of the changing landscape, 
we are hopeful that the recent trend to reduce homeland 
security grants is reversed.
    In closing, I would like to once again offer my sincere 
appreciation for the opportunity to speak with you today. The 
region is most certainly prepared for an emergency of any kind 
than it was 15 years ago, but the job is not done. The threat 
is not gone, and the realities are continually changing.
    I urge you to work with the vast group of stakeholders here 
today and others to begin planning how to make and continue us 
to make safer, more resilient, and more ready to face what 
seems to be a never-ending threat stream.
    Thank you, sir.
    [The prepared statement of Mr. Sposa follows:]
                  Prepared Statement of Richard Sposa
                             June 21, 2016
    Chairman Donovan and Members of the Subcommittee on Emergency 
Preparedness, Response, and Communications, on behalf of Barry 
Ostrowsky, president and chief executive officer of RWJBarnabas Health, 
I would like to thank you for the opportunity to come before you today 
to discuss first responders and their role in supporting efforts to 
secure surface transportation in the region.
    RWJBarnabas Health is the largest not-for-profit integrated health 
care delivery system in New Jersey. The system includes 11 acute care 
hospitals, 3 children's hospitals, a pediatric rehabilitation hospital, 
a freestanding behavioral health center, ambulatory care centers, 
geriatric centers, the State's largest behavioral health network, 
comprehensive home care and hospice programs, and several accountable 
care organizations. As the second-largest private employer in New 
Jersey, RWJBarnabas Health includes more than 32,000 employees and over 
9,000 physicians and we train more than 1,000 residents.
    Jersey City Medical Center's Emergency Medical Service (EMS) has 
served the city of Jersey City uninterrupted as its ambulance and 
emergency service provider for more than 130 years. In fact, April 2016 
marked our 133<SUP>rd</SUP> year of providing 
24/7/365 Basic and Advanced Life Support ambulance service to this 
great city. JCMC EMS has utilized many Nationally-recognized best 
processes and practices and has found that this has been instrumental 
in our system's success.
    I would like to thank this subcommittee for its dedication to 
seeking input from a wide range of stakeholders, including first 
responders, on this critical issue. I hope to show how your financial 
commitment to emergency preparedness have better prepared the region 
and how continued appropriations will continue to support the medical 
surge needs, and prepare health care systems for any disaster we could 
face, including a transit disaster or attack on its infrastructure.
    Today I will speak from both the perspective of the pre-hospital 
EMS provider as well as the emergency preparedness role of front-line 
acute care facilities. And I could not think of a more fitting setting 
to discuss this topic than the city of Jersey City, New Jersey. It has 
been nearly 15 years since the deadliest terrorist attack on American 
soil, which occurred a mere 4 miles from this spot. I can tell you that 
we are most certainly better prepared today then we were in 2001 
because of the development, funding, and implementation of Federal 
programs and local initiatives to bolster response capabilities. But I 
would be remiss if I told you there wasn't more work to do, more goals 
to accomplish, and more loops to close.
    To begin, I would like to give you a snapshot of programs that 
exist within the health care community today because of the Federal 
Government's commitment to better preparing the community to protect 
the residents, visitors, and workers in New Jersey. Since 2003, the 
Federal Government has invested more than $33 million in bolstering the 
health care preparedness in the North Jersey UASI region, which 
includes Jersey City. This money has built new programs and provided 
the basis for some of the most unique and forward thinking solutions to 
deal with medical surge and mass casualty incidents that exist in the 
country today.
    I would like to highlight some significant accomplishments both in 
the hospital and EMS worlds that indeed make this region safer and more 
resilient in the face of attack or large-scale incident. These programs 
enhance the ability of EMS and hospitals to respond to Mass Casualty 
Events, Pandemic Events, and Acts of Terrorism and would not have been 
possible without the funding that was supplied by these important UASI 
grants.
    Hospitals are, by their very nature, considered to be a soft target 
for a number of reasons. The mission of all hospitals is to be 
available to their community 24/7/365 and because those in need of aid 
must have immediate access to life-saving care, entry to these 
facilities can't be hampered or restricted. Our lights are always on, 
our doors unlocked, and our prominent role in the surrounding community 
unquestioned. This could easily be exploited and therefore the need to 
protect an open campus is paramount and a necessary first step in 
providing excellent patient care. The trauma centers in the UASI region 
have been able to harden their structures and better protect themselves 
from unwanted attacks through the Trauma Center Target Hardening 
grants. These improvements include increased closed circuit television 
capabilities, the creation of blast buffer zones around the structures, 
the installation of radiation detection and the placement of better 
access control systems to aid in that mission.
    Our hospitals have also become better prepared for a medical surge 
event as a result of the receipt of UASI grants. For example, each of 
the 34 hospitals in the NJ UASI region has been provided with a medical 
surge trailer, designed to provide the necessary supplies, tools, and 
personal protective equipment that would be needed in the face of a 
medical surge event. The coordination and uniform outfitting to each 
facility would not have been possible without an overarching mission 
directive like that of the UASI grant stream. These trailers have been 
utilized for many events, such as during Hurricane Sandy, and are 
easily shared within the hospital community for more isolated incidents 
that don't involve all the hospitals.
    In any medical surge event, communication systems and modalities 
will play a crucial role. If you read any after-action report from an 
incident or exercise you will almost certainly find multiple references 
to communication gaps that occurred during the event. And UASI has 
allowed the hospitals to bolster their communications capabilities. The 
implementation of a mass notification system that allows hospitals to 
communicate and recall their staff was a key to building more resilient 
hospitals. The other major step forward for interoperability and 
communications that was undertaken is the MutualLink system that allows 
for cross-platform, multi-discipline communication in real time. This 
tool will assist with the overall response coordination by allowing 
multiple disciplines, radios, phones, and even video feeds to be shared 
in real time and increase capabilities communications instantly.
    As you can see through these examples, the Emergency Medical 
Services community in the NJ UASI has dramatically improved its 
response capabilities and resiliency since the inception of UASI grant 
process. And these initiatives directly support securing the 
infrastructure of mass transit in the region. Through regular 
interfaces and exercises with the transit community, relationships are 
built and responses refined. The UASI program has directly impacted and 
improved these relationships through mutual training and cross 
discipline planning.
    Turning specifically to our role in protecting and responding to 
emergencies within transit systems, I want to focus on two 
collaborative endeavors--our efforts in the creation of the Passenger 
Rail Security Plan as well as our work, through UASI grants, to furnish 
our partners with specialized equipment geared toward transit events.
    First, the Passenger Rail Security Plan, which represents the most 
comprehensive initiative undertaken by EMS in New Jersey related to the 
transit system. The Plan was developed by the New Jersey EMS Taskforce, 
which is a stakeholder group of specialized resources of which Jersey 
City Medical Center's EMS is a charter member. The creation of the Plan 
began with a kickoff meeting in October 2009 and included nearly 80 
representatives from local EMS agencies and the State OEM, as well as 
State, Federal and private planning partners. The Task Force reviewed 
and analyzed response guidelines, best practices, and lessons learned 
from authorities such as Madrid's emergency services, the London 
Ambulance Service, District of Columbia Fire and EMS, the Los Angeles 
Fire Department, Jersey City Medical Center EMS, the Hudson County 
Office of Emergency Management. Completed in March 2011, the Plan is an 
unprecedented 1,238-page detailed document and, as I mentioned, it 
represents the largest EMS planning project in New Jersey's history. 
Its authors invested more than 10,000 hours of work, and more than 70 
agencies collaborated between its inception and completion.
    The Plan incorporates more than 300 stations throughout the State 
overall. The most vulnerable stations, of which there are 38 spanning 
10 counties, have either a ridership of at least 500,000 per year or 
are attached to critical infrastructure such an airport, sporting arena 
or entertainment venue. This Plan made unprecedented strides in terms 
of EMS coordination and integration with our transit partners.
    Next, we have equipped our partners with specialty equipment 
designed to enable remote access to patients, support mass casualty 
events, and aid in the mass transportation of patients. This is 
critically important as one of the largest challenges that EMS faces 
during mass transit events is the availability of access to remote 
locations. When an event occurs away from a station it can be 
incredibly difficult to access the incident location. To address this 
issue, in New Jersey we have amassed a fleet of off-road ambulances 
built specifically to access remote locations and remove patients to 
central locations for further treatment and transport. These assets 
allow for the quick extraction of patients from remote locations and, 
in time life critical circumstances, will mean the difference between 
life and death.
    New Jersey EMS has assembled the largest known fleet of Medical 
Ambulance Buses, which are designed to meet the needs of mass casualty 
events and are capable of transporting up to 22 patients with one trip. 
These assets would not have been obtainable without the support of the 
UASI dollars coming to the region, and these assets have been proven 
time and time again in the region and continue to be a valued resource, 
regularly assisting with nursing home evacuations and large-scale 
incidents throughout the State. These assets have been put into action 
on countless occasions and transported thousands of patients allowing 
for quick evacuation and relocation with much less manpower during a 
disaster response. This fleet has become an indispensable asset in the 
region and a model for other locations to emulate.
    NJ also has a large fleet of mass care response units (known as 
``MCRUs''), spread throughout the State to meet the ever-evolving 
threat profile and these units will play a critical role in providing 
the much-needed supplies, equipment, and transport devices at an event. 
There are 5 large-scale MCRU's capable of treating 100 patients each 
and an additional 7 smaller units that can each treat 50 patients. 
Should a large-scale transit event occur, these assets would be a 
critical asset that will be mobilized quickly and allow for adequate 
supplies to be delivered to the scene.
    Based on some of the examples I've provided you with today, you can 
see that hospitals emergency medical providers and other partners in 
the region are better prepared to handle adverse surge events, such as 
those that could be created by large-scale transit attacks or 
accidents, as a direct result of Federal dollars supplied. But there is 
more work to do in order to continue to ensure we are exceptionally 
prepared for any emergency response necessary. This is particularly 
important as we see terror threats evolving.
    As the challenges we are facing change, our needs to meet those 
challenges will change as well. We are talking about protecting our 
transit systems and how different aspects of the health care continuum 
support that. What we see unfolding is a new disturbing trend of 
active-shooter and mass-shooting events, such as seen in Orlando last 
weekend. Of course we need to be prepared for the next threat, but 
there is a benefit to the tasks already undertaken. We are prepared for 
the ``all hazards'' approach and are already refining that mission to 
include the latest trends in EMS and Hospital care by bolstering our 
bleeding control equipment and training and working with our partners 
in Law Enforcement and Fire. To date the NJ UASI has already invested 
nearly $4,000,000 in the rescue task force concept and getting the 
right equipment into the hands of those who need it this is another 
successful example of how these dollars prepare us for these events.
    We are cognizant of the limited resources available and the 
difficult decisions that you must make in Congress on how to allocate 
resources; however, because of the changing landscape, we are hopeful 
that the recent trend to reduce homeland security grants, is reversed.
    In closing, I would like to once again offer my sincere 
appreciation for the opportunity to speak with you today. The region is 
most certainly more prepared for an emergency of any kind than it was 
15 years ago. But the job is not done, the threat is not gone, and the 
realities are continually changing. I urge you to work with the vast 
group of stakeholders here today, and others, to begin planning how to 
continue make us safer, more resilient, and more ready to face what 
seems to be a never-ending threat stream.

    Mr. Donovan. Thank you.
    The Chair recognizes Captain Gorman for 5 minutes.

STATEMENT OF RICHARD D. GORMAN, OFFICE OF EMERGENCY MANAGEMENT 
    AND HOMELAND SECURITY, DEPARTMENT OF FIRE AND EMERGENCY 
               SERVICES, JERSEY CITY, NEW JERSEY

    Mr. Gorman. Thank you, Chairman Donovan, Ranking Member 
Honorable Donald Payne, and respective Members of the 
subcommittee.
    On behalf of the Jersey City Fire Department and the 
Emergency Response Partnership of the Northern New Jersey 
Region, please accept my deepest gratitude to appear and 
present testimony regarding the protection of our passengers on 
surface transportation.
    On February 9, 1996, at 8:40 a.m., the emergency response 
community of Jersey City, Hudson County, and New Jersey State 
and Federal agencies converged to a remote section of the 
Jersey City-Secaucus border. I was--as a young firefighter/EMT, 
I was one of the first responders, and I was presented with a 
horrific crash of two commuter trains.
    Our society was beginning to worry about terrorist events 
with the 1993 World Trade Center bombing, which was right in 
our neighborhood, Jersey City. First thing you ask yourself, 
was this a terrorist event?
    As highlighted in the articles that I have submitted, you 
could review that for your future reference, as the police, 
fire, rescue, and EMS crews began to triage and treat the 
injured, we were quickly exhausted of our resources we had on 
hand. We were already beyond our capabilities, and we hadn't 
even transported a single patient to the hospital. In order to 
accomplish that, command and control had to be established, and 
multi-discipline mutual aid to be summoned on an unprecedented 
scale for our area.
    Unfortunately, we measure our response by stating our 
losses, and that day, 3 people lost their lives, the 2 
engineers and 1 passenger. But 162 passengers were injured, 16 
severely, and we should begin to realize that we were 
successful in that every passenger that we treated on that day 
did survive, largely due to the rapid response, on-scene 
operations, due to the extensive training and superior 
knowledge, skill, and ability of many emergency response 
personnel, both on scene and in the hospitals.
    That day ended for us, and we were proud to say that we 
saved many from death and further injury, but the lessons 
learned continued to evolve. The executives of many agencies 
gathered and conducted very comprehensive evaluations and post-
incident analysis of many aspects of this incident. There were 
models presented to many committees, which included natural and 
man-made disasters related to rail and surface mass 
transportation.
    Different target locations were introduced to include 
transportation hubs and terminals, as well as hard-to-access 
remote locations that is described in this incident. The State 
of New Jersey and Jersey City has come a long way since that 
day.
    As Director Kierce has testified to the attraction of 
attacks on our infrastructure, we in the emergency management 
and response community are well aware that any place is a 
potential target, and we respond to each and every one of them 
to protect the lives of the citizens we are sworn to protect.
    Many programs have been developed to support our response 
to terrorism and enhance our ability to operate in these large-
scale events. To highlight a few, the Metropolitan Medical 
Strike Team; the Urban Area Security Initiative funding, or the 
UASI; SAFER grants, which is Staffing to Adequate Fire and 
Emergency Response; AFG, which is the Assistance to Firefighter 
Grant; the Port Security Grant Program.
    These work to enhance communications, develop threat 
analysis groups and fusion centers, form specialized teams, 
enhance training and exercise to include our working with FEMA 
for National exercise pilot programs, and the most recent 
exercise was the Bakken crude oil transport within Hudson 
County. Special trained law enforcement teams and rapid 
deployment forces and information-sharing committees were 
formed.
    MMRS was developed and was one of the first National grant 
programs to support emergency response agencies to address gaps 
in equipment and training. This funding has been discontinued. 
However, many other programs, such as UASI, has replaced it and 
has a more detailed, focused structure to provide a better-
defined overall system.
    The on-going interagency communication of radio, data, and 
live-streaming to enhance situational awareness from on-scene 
operation to senior commanders and executive decision-making 
officials continues to evolve. Secure radio communications have 
become better and will continue to grow with the demand.
    Systems like NJ NET and Mutualink are becoming common. 
Local, county, and State emergency operation centers, fusion 
centers, and coordination centers are in virtually every city 
and township, which are used for planned events and natural and 
man-made disasters. These systems and locations are extremely 
useful. However, they do have a price tag in the new and 
evolving technical support that they require.
    Additionally, challenges in permissions of being able to 
share frequencies with other agencies is becoming or has been a 
problem, and we seem to be overcoming that. The inception of 
dual and tri-band radios and the complicated user training that 
we will need to use them is going to be apparent.
    Specially-trained units, such as the New Jersey Task Force 
One Urban Search and Rescue Team, due to the large commitment 
of manpower and equipment, we were recently the latest to be 
accepted into the National Urban Search and Rescue Response 
System. This team began its journey in 1998. From that unit, a 
new concept was introduced in this region called the Metro 
Urban Strike Team.
    Based on a gap analysis from a first responder operating on 
a collapse to the time that the task force could arrive on 
scene, it was estimated to be a 1- to 6-hour window. The MUST 
team, or the Metro Urban Strike Team, fills that gap, and these 
teams are lined throughout the UASI region. Their capabilities 
are structural collapse, trench rescue, technical rescue, and 
we seek to train and respond in new disciplines as that 
committee unfolds.
    As Mr. Sposa stated, the New Jersey EMS Task Force is also 
a system born from this UASI subcommittee, and it has proven 
itself to be invaluable. New Jersey Transit provides also 
evacuation transport in stricken localities, such as Jersey 
City, to self-shelter areas.
    So if we had a shelter in Jersey City and we were in a 
danger zone, New Jersey Transit would mobilize buses, and we 
would move then to another section of the State which is safe. 
I would like to thank you for your support and commitment and 
our elected officials at many levels of government for that.
    Training and exercise programs in basic to advanced 
operations from initial arrival to advanced command-and-control 
have also been developed. These programs are world class, 
delivered by the very best instructors in the field. Many are 
sponsored by the National Office of Domestic Preparedness in 
similar agencies.
    These are invaluable. However, they are scaled down by 
departments due to operating at minimum staffing levels and 
budgetary concerns to pay for the venues and the expensive cost 
of replacing personnel.
    Additionally, the allocation or allowance of Federally-
funded training centers and staff should be seriously 
reconsidered. Hudson County does not have a fully-functional, 
fully-staffed, multi-disciplined training academy and training 
ground, and this area, being as compressed as it is, severely 
lacks that. The personnel must be placed off-duty and often 
replaced to attend training academies in other counties, 
leading to delays in response should they have to be recalled 
for an emergency within Hudson County.
    Other programs were the rapid deployment force and 
information-sharing component, such as the JTTF, which will be 
addressed by other capable persons here. But the most important 
thing that we have today, which we didn't have, is the 
relationships with the mutual aid partnerships, the police 
departments, the EMS. Imagine a cop and a fireman getting along 
and getting things done.
    The Port Authority Police, the Port Authority OEM, New 
Jersey Transit Police, their special operations group, their 
OEM group, New Jersey State Police, Amtrak, Conrail, and 
Norfolk Southern, we work with many different partners to do 
training and district familiarizations.
    In closing, on behalf of the Director of Public Safety Shea 
and the Chief of Department Darren Rivers, the men and the 
women of the Jersey City Fire Department, the men and women of 
the New Jersey Task Force One, and of course, the Jersey City 
Mayor Steven M. Fulop, I thank you again for your interest in 
the most important aspect of our business, keeping the citizens 
of the United States and her visitors safe and secure.
    [The prepared statement of Mr. Gorman follows:]
                Prepared Statement of Richard D. Gorman
                             June 21, 2016
    Chairman Donovan, Ranking Member Honorable Donald M. Payne Jr., and 
the respected Members of this subcommittee, On behalf of the Jersey 
City Fire Dept and Emergency Response partnership of the North New 
Jersey Region, please accept my deepest gratitude to appear and present 
testimony regarding the protection of our passengers on surface 
transportation.
    On February 9, 1996 at 8:40 a.m., the emergency response community 
of Jersey City, Hudson County and N.J. State, and Federal agencies 
converged to a remote section of Jersey City and Secaucus Border. As a 
young firefighter/EMT and one of the first due responders, I was 
presented with a horrific crash of 2 commuter trains.
    Our society was beginning to worry about terrorist events after the 
1993 WTC Bombing.
    Was this a terrorist event?
    As highlighted in the New York Times article provided, there were 
many obstacles to overcome.
    As the police, fire rescue and EMS crews began to triage and treat 
the injured, we quickly exhausted the resources we had on hand. We were 
already beyond our capabilities, and we haven't even transported a 
single patient to a hospital yet. In order to accomplish that, Command 
and Control had to be established, and multi-discipline mutual aid had 
to be summoned in an unprecedented scale for our city.
    Unfortunately we measure our response by stating our loses. Three 
people lost their lives, the 2 engineers and 1 passenger, 162 
passengers were injured (16 severely). We should begin to realize that 
we were successful in that all the passengers treated survived largely 
due to the rapid response, on-scene operations due to extensive 
training and superior knowledge skill and ability of many emergency 
response personnel both on scene and in hospitals.
    That day ended for us, and we were proud to say that we saved many 
from death and further injury that day. But the lessons learned 
continue to evolve.
    The executives of many agencies gathered and conducted very 
comprehensive evaluation (Post-Incident Analysis) of many aspects of 
this accident.
    There were models presented to many committees, which included 
natural and man-made disasters related to rail and surface mass 
transportation. Different target locations were introduced, to include 
transportation hubs and terminals, as well as hard-to-access remote 
locations as described.
    The State of New Jersey and Jersey City has come a long way from 
that day.
    As Director Kierce has testified to the attraction of attacks on 
our infrastructure, we in the emergency management and response 
community are well aware that any place is a potential target. And we 
respond to each and everyone of them to protect the lives of the 
citizens we are sworn to protect.
    Many programs have been developed to support our response to 
terrorism, and enhance our ability to operate in these large-scale 
events.
  <bullet> Metropolitan Medical Strike Team (MMRS)
  <bullet> Urban Area Security Initiative Funding (UASI) on a regional 
        basis
  <bullet> Staffing for Adequate Fire and Emergency Response (SAFER) 
        Grants
  <bullet> Assistance to Firefighter Grant (AFG)
  <bullet> Port Security Grant Program (PSGP)
  <bullet> Enhancement in the Communications
  <bullet> Threat Analysis Groups, Fusion Centers
  <bullet> Specially Trained Teams and Groups (NJ-TF 1, MUST, NJEMSTF, 
        NJ Transit Police Special Operations)
  <bullet> Training and Exercise
  <bullet> Command and Control
  <bullet> Special Trained Law Enforcement Teams (RDF)
  <bullet> Information-Gathering Sharing committees
    MMRS was developed and was one to the first National Grant programs 
to support the emergency response agencies to address gaps in equipment 
and training. This funding has been discontinued, however many other 
programs such as the UASI has replaced it and has a more detailed, 
focused structure to provide a better-defined overall system.
    The on-going inter agency communication of radio, data, and live-
streaming to enhance situational awareness from on-scene operation to 
senior commanders and executive decision-making officials continues to 
evolve. Secure radio communication have become better and will continue 
to grow with the demand.
    Systems like NJ NET and Mutual Link are becoming common. Local, 
county, and State Emergency Operations Centers, Fusion Centers, 
Coordination Centers are in virtually every city and township, which 
are used for planned events, and natural and man-made disasters.
    These systems and locations are extremely useful, however they do 
have a price tag in the new and evolving technical support they 
require.
    Specially-Trained units such the NJ-TF 1 USAR team. Due to a large 
commitment of manpower and equipment was recently the latest to be 
accepted into the National Urban Search and Rescue Response System. 
This team began it's journey in 1998. From that unit, a new concept was 
introduced in NJ. The Metro Urban Strike Team (MUST), Funded by the 
UASI program, local departments have received equipment and training to 
fulfill the first response operational period of the first 4-6 hours in 
structural collapse, trench rescue, technical rescue, and seek to train 
and respond in enhanced disciplines. The NJ EMFS Task Force is also a 
system born of the continued UASI subcommittees.
    I would like to thank you for your support and commitment and that 
of our elected officials from many levels of government.
    Training and Exercise Programs in basic to advanced operations. 
From initial arrival to advanced Command and Control have also been 
developed. These programs are world-class, delivered by the very best 
instructors in the their field. Many are sponsored by the National 
Office of Domestic Preparedness and similar agencies.
    These are invaluable, however often are scaled down due to 
departments operating at minimum staffing levels and or budgetary 
concerns to pay for venues and cost of replacing personnel.
    The allocation or allowance of Federally-funded training centers 
and staff should be seriously reconsidered. Hudson County does not have 
a fully functional, fully-staffed multi-discipline training academy 
training ground. The personnel must be placed off duty and often 
replaced to attend training academies in other counties leading to 
delays in response should they be recalled.
    RDF and Information Sharing Components (JTTF) have or will be 
addressed by other capable persons here.
    In closing, on behalf of Director of Public Safety Shea and Chief 
of Department Datten Rivers and the men and women of the Jersey City 
Fire Department, The men and women of the NJ Task Force 1, and of 
course Jersey City, City Mayor Steven M. Fulop, I thank you again for 
your interest in the most important aspect of our business, keeping the 
citizens of the United States and her visitors safe and secure.

    Mr. Donovan. Thank you, Captain.
    The Chair now recognizes Lieutenant Glenn for 5 minutes.

STATEMENT OF VINCENT GLENN, COMMANDER, EMERGENCY SERVICE UNIT, 
           POLICE DEPARTMENT, JERSEY CITY, NEW JERSEY

    Mr. Glenn. Good morning. I am Lieutenant Vincent Glenn from 
the Jersey City Police Department, and I appreciate the 
opportunity to speak before you today.
    I am currently the commander of the Emergency Service Unit. 
The Emergency Service Unit, ESU, oversees the bomb squad, the 
scuba team, maritime operations, and the CBRNE response unit, 
CBRNE meaning chemical, biological, radiological, nuclear, and 
explosives.
    Our specially-trained and equipped personnel are 
responsible for prevention and response to terrorism events, 
including those in our local port areas, industrial facilities, 
transit hubs, and commuter corridors. Officers who are assigned 
to ESU include FBI-certified bomb technicians, Coast Guard 
credentialed boat operators, hazardous materials technicians, 
and fully-certified scuba divers.
    ESU officers are capable of responding with a full 
complement of CBRNE equipment to assist in the response and 
recovery of criminal incidents, terrorism events, and other 
emergencies.
    Please let me share some relevant details of our city. 
Jersey City is situated on a peninsula, with the Hackensack 
River and Newark Bay on its western shore and the Hudson River 
and New York Bay on its eastern shore. The city's population is 
nearly 270,000 residents, and it is estimated that daytime 
commuters more than double that number.
    Our officers continually collaborate with emergency 
management officials, law enforcement partners, and first 
responders throughout the New York/New Jersey metropolitan 
region in a whole community approach to carefully manage 
resources and response activities. Some of our partnerships 
include participation in the New Jersey State Render Safe Task 
Force, Urban Area Security Initiative, Securing the Cities 
Program, WMD Stabilization Team, and FBI Electronic 
Countermeasures Task Force.
    Some of the critical infrastructure, buffer zones, and soft 
targets that fall within our area of responsibility include the 
Jersey City waterfront, financial district, the Holland Tunnel, 
5 separate commuter ferry terminals, the Port Jersey shipping 
terminal, and various railways.
    Additionally, ESU's incident prevention and response 
equipment is utilized along Newark Bay and the Hackensack River 
for security risk mitigation of the numerous bridge crossings 
for inter-State highways and railways running in and out of the 
New York/New Jersey region.
    My fellow officers and I take pride in our training and 
preparedness. One of the most fundamental aspects of responding 
to an emergency incident is interoperability. On a daily basis, 
the Jersey City Police Department, particularly ESU, is 
constantly working to foster partnerships and improve 
interagency communications.
    Training courses, multi-jurisdictional drills, and 
interdisciplinary exercises prepare us to be ready to respond 
to every perceived threat to public safety, regardless of 
whether that threat is predictable or emerging. Because the 
skill set to meet an all-hazards approach is perishable, 
training and education must be on-going and repeated for new 
and seasoned responders alike. As complex threats intensify, it 
is our duty to lead, coach, and direct our first responders.
    ESU officers dedicate a significant number of hours to 
specialized training. For example, bomb technicians attend 6 
weeks of training at the FBI's Hazardous Devices School. They 
then continue their education with monthly in-service classes 
and periodic multi-jurisdictional drills.
    Our scuba divers spend hundreds of hours in initial 
training to attain skills such as advanced open water diving, 
rescue diving, and evidence recovery. Their training continues 
as they perform practical exercises in hazardous environments 
such as the Hudson River and Newark Bay.
    Boat operators are fully credentialed by the National 
Maritime Service, as they learn to pilot our 37-foot CBRNE 
rescue patrol boat. This credential mandates that operators 
maintain hundreds of hours on the water per year to ensure 
proficiency.
    Our emergency responders prepare and experience tremendous 
local support during drills conducted at public locations in 
sensitive areas. These drills, which are frequently covered by 
the media, give first responders an invaluable opportunity to 
work with stakeholders and other officials in demonstrating the 
interoperability that is so essential to managing a crisis. 
Within Jersey City, these drills have recently been carried out 
at the Holland Tunnel, the JP Morgan Chase building, and even 
right here at NJCU.
    It is not only emergency response agencies that need the 
ability to work cohesively, but it is important that the public 
be empowered to unite with first responders in achieving 
coordination and preparedness. For example, the police 
department's bomb squad conducts community outreach to our 
partners in the public and private sector with lectures and 
demonstrations in such topics as IED awareness, evacuation 
procedures, response to bomb threats, and active-shooter 
safety.
    Our scuba team visits junior police academies to 
demonstrate water safety, and our canine officers provide 
question-and-answer sessions at local schools. It is because of 
the skills afforded to us by advanced training that we as 
professionals can continue to raise standards, improve 
planning, and build partnerships.
    Another important component to consider is equipment. Not 
only is training and education perishable, but the tools to 
meet emerging threats are perishable as well. Ordering 
specialized equipment often takes many steps and incurs 
considerable expense over time.
    Equipment and tools often require everything from 
rudimentary maintenance and repair to advanced technological 
upgrades. Some of these tools include radiation detectors, X-
ray systems, air monitors, and bomb disposal robots. The 
specialized equipment that I just mentioned, among many other 
tools, demonstrate the multiple defenses that are needed to 
improve our approach to pervasive threats and targets of 
interest.
    With pride, let me relate a few noteworthy incidents that 
occurred within the last year and concluded with positive 
outcomes. I responded to a report of a suspicious package on 
the PATH train in Jersey City during prime commuter hours. Upon 
assessing the situation, the item, a pressure cooker, was 
remotely dismantled with minimal disruption to the public.
    On another occasion, a radiological source was detected 
near the Hoboken waterfront and deemed to be nonhazardous by 
using an advanced isotope identifier.
    Recently, police divers retrieved a piece of sensitive 
homeland security equipment from the waters surrounding the 
Port Jersey marine terminal. It was through the cooperation of 
a variety of agencies that these incidents were quickly 
resolved.
    In summation, we need not be reminded that our area has 
been labeled as a target-rich environment, perhaps even the 
most high-risk urban area in the country. It is because of the 
constant vigilance of public safety professionals who operate 
in challenging environments all day, every day that allow for a 
robust response to disruptions and emergency events of all 
types.
    On behalf of the quarter-million residents of Jersey City, 
my professional partners, and our government officials, I thank 
you for affording me the opportunity to testify before you on 
these important matters.
    [The prepared statement of Mr. Glenn follows:]
                  Prepared Statement of Vincent Glenn
                             June 21, 2016
                              introduction
    I am Lieutenant Vincent Glenn from the Jersey City Police 
Department and I appreciate the opportunity to speak before you today. 
I am currently the commander of the Emergency Service Unit. The 
Emergency Service Unit (ESU) oversees the Bomb Squad, SCUBA team, 
maritime operations, and the CBRNE response unit (CBRNE meaning 
response to chemical, biological, radiological, nuclear, and explosive 
incidents).
    Our specially-trained and equipped personnel are responsible for 
prevention and response to terrorism events, including those in our 
local port areas, industrial facilities, transit hubs, commuter 
corridors, and residential neighborhoods. Officers who are assigned to 
ESU include FBI-certified Bomb Technicians, Coast Guard-credentialed 
boat operators, State-certified hazardous material technicians, and 
fully certified SCUBA divers. ESU officers are capable of responding 
with a full complement of portable CBRNE equipment to withstand and 
assist in the response and recovery of criminal incidents, terrorism 
events, and emergencies due to natural disasters.
                               background
    The city of Jersey City is situated on a peninsula with the 
Hackensack River and Newark Bay on its western shore and the Hudson 
River and New York Bay on its eastern shore. The city's residential 
population is nearly 270,000 residents and it is estimated that daytime 
commuters raises the populace to approximately half-a-million people. 
Jersey City's 21 square miles and population density of nearly 17,000 
people per square mile makes it the third most-densely-populated large 
city in America and it is ranked as one of the top 120 cities 
vulnerable to a terrorist attack.
    Our officers continually collaborate with emergency management 
officials, law enforcement partners, and first responders, through the 
New York/New Jersey metropolitan region, in a whole-community-approach, 
to carefully manage resources and response activities. Some of our 
partnerships include participation in the NJ State Detect and Render 
Safe Task Force, Urban Area Security Initiative, Securing the Cities 
program, and FBI Level III WMD Stabilization Team, and FBI Electronic 
Countermeasures Task Force.
    We, as first responders are dedicated to enhancing emergency 
preparedness and enabling rapid recovery from terrorist events, natural 
disasters, and other emergencies. Some of the critical infrastructure, 
soft targets, and buffer zone responsibilities include the Jersey City 
waterfront financial district, the Holland Tunnel, 5 separate commuter 
ferry terminals, 3 separate public marinas, Cape Liberty Cruise Port, 
Port Jersey Shipping Terminal, Global Container Terminal, Claremont 
Terminal, Public Service Electric Hudson Generating Station, Liberty 
State Park, and Ellis Island. Additionally, ESU incident prevention and 
response equipment is utilized along Newark Bay and the Hackensack 
River for security risk mitigation of the numerous bridge crossings and 
support stanchions for inter-State highways and State thoroughfares 
running in and out of the New York/New Jersey metropolitan area. The 
JCPD Emergency Service Unit has existing MOU's with UASI and the USCG 
to respond with personnel and CBRNE equipment to areas along the Hudson 
River, Hackensack River, New York Bay, Raritan Bay, Kill Van Kull, Port 
Elizabeth, and Port Newark.
                          training/preparation
    One of the most fundamental aspects of responding to any emergency 
incident is interoperability. On a daily basis, Jersey City Police 
Department, particularly ESU, relies on partnerships with all local 
agencies to ensure the safety of everyone. We are constantly working to 
foster these partnerships and improve our interagency communications. 
Training courses, multi-jurisdictional drills, and inter-disciplinary 
exercises, prepare us to be ready to respond to every perceived threat 
to public safety, regardless of whether that threat is predictable or 
emerging. And because the skill set to meet an all-hazards approach is 
perishable, training and education must be on-going and repeated--for 
new and seasoned responders alike. As complex threats intensify it is 
our duty to lead, coach, and direct our first responders.
    Members of ESU dedicate a significant number of hours to 
specialized training. Bomb Technicians earn certification after an 
initial 6 weeks of training at the FBI's Hazardous Devices School, the 
only school in the country certified to train Bomb Technicians. They 
then continue their education with monthly in-service classes, periodic 
multijurisdictional exercises and drills, and continuing professional 
development at HDS. Our SCUBA divers spend hundreds of hours in initial 
training to attain skills such as advanced open-water diving, rescue 
diving, and evidence recovery. Their training continues as they perform 
practical exercises in hazardous environments such as the Hudson River, 
Hackensack River, Newark Bay, and New York Bay. Boat operators are 
fully credentialed by the National Maritime Service as they learn to 
pilot our 37-foot CBRNE rescue and patrol boat, which is also equipped 
with radiation detection equipment. This credential mandates that 
operators maintain hundreds of hours, on the water, per-year to ensure 
proficiency. Their skills are particularly necessary when operating 
under harsh conditions, which is likely to occur when responding to 
those in need of assistance. All of these disciplines practice response 
to, and recovery from, criminal incidents, terrorism events, and 
disruptions due to emergencies. However, just as important is the 
prevention and mitigation of security threats that these officers 
accomplish by routinely conducting critical infrastructure surveys and 
safety checks.
    Emergency response preparation has experienced tremendous local 
support during drills conducted at public locations and sensitive 
areas. These drills, which are frequently covered in the media, give 
first responders an invaluable opportunity to work with stakeholders 
and other officials in demonstrating interoperability that is so 
essential to managing a crisis. Within Jersey City, these drills have 
recently been carried out at the Holland Tunnel, the JP Morgan Chase 
building, St. Peter's University and New Jersey City University. An 
upcoming drill is scheduled to test emergency response to the Newport 
Mall. In addition, on-going radiological training exercises are 
conducted at maritime chokepoints in the area of the Verrazano Bridge, 
George Washington Bridge, and Bayonne Bridge.
    It is not only emergency response agencies that need the ability to 
work cohesively, but it is important for the public to be educated and 
empowered to unite with first responders to achieve coordination and 
preparedness. For example, the Police Department's Bomb Squad conducts 
community outreach to our partners in the public and private sector 
with lectures and demonstrations in such topics as IED awareness, 
evacuation procedures, response to bomb threats, and active-shooter 
safety. Our SCUBA team visits junior police academies to demonstrate 
water safety, and our K-9 officers provide question & answer sessions 
at local schools. It is because of special skills afforded by advanced 
training that we as a profession can continue to raise standards, 
improve preparedness planning, and build partnerships between local 
government and the public.
                               equipment
    Not only is training and education perishable, but the tools and 
equipment to meet emerging threats and mitigate disruptions due to 
emergencies are perishable as well. Not only does ordering specialized 
equipment take many steps, it more-often-than-not incurs reoccurring 
expenses over time. Many of the tools to which I refer, require 
everything from rudimentary maintenance and repair, to advanced 
technological upgrades and expansion--this, in addition to running day-
to-day operations. Some of the highly special tools needed to perform 
the task of protecting the public and enhancing emergency preparedness 
include radiation detectors, counter-IED X-ray systems, suspicious 
powder test-kits, chemical air monitors, interoperable communications 
gear, and bomb disposal robots. The specialized equipment that I just 
mentioned, among many other tools, demonstrate the multiple defenses 
that are needed to improve our approach to pervasive threats, targets 
of interest, critical infrastructure.
                              realization
    With pride, I can relate a few incidents that occurred within the 
past year that concluded with a positive outcome. We responded to a 
report of a suspicious package on the PATH train in Jersey City, during 
prime commuter hours. Upon assessing the situation, the item, a 
pressure cooker, was remotely dismantled with minimal disruption to the 
public. On another occasion, a radiological source was detected by 
police near the Hoboken waterfront and ruled out as hazardous by the 
Jersey City Emergency Service Unit with the use of advanced isotope 
identification equipment. Recently, a piece of sensitive Homeland 
Security equipment was safely retrieved by Jersey City Police divers in 
the area of the Port Jersey Marine Terminal. It is through the 
cooperation of a variety of agencies and the public, that these 
incidents were quickly resolved without incident.
                                summary
    In summation, we need not be reminded that the New York/New Jersey 
metropolitan area has been labeled as a target-rich environment, 
perhaps even the most high-risk urban area in the country. It is the 
constant vigilance of public safety professionals who operate in a 
challenging environment, all day every day, that allow for a robust 
response to disruptions and emergency events of all types. On behalf of 
the quarter-million Jersey City residents, my professional partners, 
and our government officials, I thank you for affording me the 
opportunity to testify before you on these important matters.

    Mr. Donovan. Thank you, Lieutenant.
    The Chair now recognizes Officer Mollahan for 5 minutes.

  STATEMENT OF MIKE MOLLAHAN, TRUSTEE, PORT AUTHORITY POLICE 
                     BENEVOLENT ASSOCIATION

    Mr. Mollahan. Chairman Donovan, Ranking Member Payne, 
Representative Watson Coleman, thank you for convening this 
important hearing and giving me the opportunity to appear 
before you today.
    My name is Mike Mollahan. I am the legislative director and 
a trustee of the Port Authority PBA.
    Our police officers patrol some of the most terrorist-
targeted infrastructure and landmarks in the world, including 
the 6 bridges and tunnels between New Jersey and New York; the 
world's busiest airport system of JFK, LaGuardia, and Newark; 
marine terminals and ports, including Port Newark, Elizabeth, 
and Brooklyn Piers; the largest and busiest bus terminal in the 
Nation, the Port Authority bus terminal in Manhattan; the 
sacred ground of the World Trade Center; and most relevant to 
this hearing, the PATH trains.
    The PATH heavy rail, rapid transit system serves as the 
primary transit link between Manhattan and neighboring New 
Jersey urban communities and suburban commuter railroads. PATH 
carries approximately 244,000 passengers each week day and is 
growing.
    In 2015, PATH carried approximately 76.6 million 
passengers. I have worked the PATH system for the last 12 
years, and during this time, passenger loads have increased, 
trains have become more crowded, and threat incidents have 
risen.
    For today's hearing, I would like to highlight two areas 
that are important to fortifying the security of PATH trains, 
training and resources for police officers and coordination 
with other agencies. Over the past 3 years, biannual training, 
which involves active-shooter and tactical weapons training, 
pistol requalification, legal updates, and a host of other 
important refresher training has gone down from 5 days of 
training to 2, which directly impacts officers' readiness.
    In particular, active-shooter and tactical weapons training 
previously entailed a full day of training but has been cut to 
only a few hours. Tactical training involves using specialized 
weapons and equipment to breach doors in our ``tac house'' 
structures that are built to simulate rooms within buildings or 
train cars and mimic active-shooter and mass shooting 
situations.
    This type of training is more important now than ever in 
the aftermath of assault weapons attacks in Newtown, 
Connecticut; Aurora, Colorado; as well as the recent shootings 
in Orlando, Florida, and San Bernardino, California, which have 
now become all too frequent. To this end, heavy weapons and 
heavy weapons-trained officers need to be increased throughout 
the Port Authority facilities, along with the number of 
vehicles that can properly secure these weapons.
    Furthermore, the support services provided to our patrol 
units, including the Emergency Service Unit and canine unit, 
have been diminished. The ESU provides SWAP, sniper, and 
specialized response capabilities to issues that arise at all 
Port Authority facilities. ESU staffing levels have been cut 
for budget savings, and current ESU officers need better 
refresher training. The Port Authority canine unit, which 
covers PATH, the bus terminal, and the World Trade Center has 
also suffered.
    Last, while the camera systems at PATH have been updated, 
they lack enhancement capability, which can make identifying 
and apprehending suspects difficult. The cameras at Port 
Authority bridges, tunnels, and bus terminals are also outdated 
when compared to readily available and common technology on the 
market.
    With today's technological advancements, the Port Authority 
police should have been able to have a photo of a suspect 
within minutes to be able to broadcast to all PAPD, NYPD, and 
MTAPD in proximity to the bus terminal. It is worth noting that 
the Port Authority has installed State-of-the-art cameras on 
the JFK Air Train and should deploy this camera technology to 
the rest of its facilities.
    We are still unsure if these incidents were pranks or tests 
of vulnerability by terrorists. Either way, it is unacceptable.
    The Port Authority Police attend New Jersey Transit Police 
training tools and tactics training, which is a step in the 
right direction. However, the Port Authority needs to expand 
this training to more officers or similar training with other 
departments to ensure a seamless, multi-agency response.
    Further, when we train in multi-agency drills, the Port 
Authority staffs these drills at significantly higher levels 
than we staff on a daily basis, making the drills less 
realistic. Thus, multi-agency drills should be conducted with 
the regular number of officers assigned during the shift for 
the time of the drill.
    With regards to interagency communication, the PBA, along 
with Jersey City Office of Emergency Management, has made 
numerous requests to the Port Authority to install a Mutualink 
radio system, which allows multi-agency communications during 
emergencies. While the system has been installed at the PATH 
police desk, our officers are not trained how to use this 
capability.
    Training on this system should be made available to 
officers immediately so that in the event of a multi-agency 
response, our officers are able to relay information to mutual 
aid forces in order for a seamless and unified response. The 
Mutualink is a good communication system that needs to be 
placed at all Port Authority facilities, and we need to be 
trained in how to use it.
    Those seeking to disrupt travel and inflict harm are 
constantly working to identify and exploit vulnerabilities in 
our system. So we must remain vigilant and aggressive in our 
posture. Our officers also patrol the World Trade Center, where 
we witnessed the worst terrorist attack in American history, 
and I know that men and women who patrol and secure this area 
never want to let another tragedy like this happen on our 
watch.
    In this regard, the most important actions that can be 
taken to help secure PATH are to increase officer training and 
resources and to continue to enhance interagency coordination 
among the various first responder entities within our region.
    I would request that Members of this committee join me on a 
visit to the PATH facilities and other important Port Authority 
infrastructure to inspect these issues first-hand and see what 
needs to be done immediately to address these concerns and 
properly protect the public.
    Thank you again for inviting me to appear before your 
subcommittee, and I look forward to answering any questions you 
may have.
    [The prepared statement of Mr. Mollahan follows:]
                  Prepared Statement of Mike Mollahan
                             June 21, 2016
    Chairman Donovan, Ranking Member Payne, and Members of the 
subcommittee, thank you for convening this important hearing and giving 
me the opportunity to appear before you today.
    My name is Mike Mollahan and I am legislative director and a 
trustee of the Port Authority Police Benevolent Association (PBA). Our 
police officers patrol some of the most terrorist-targeted 
infrastructure and landmarks in the world, including the 6 bridges and 
tunnels between New Jersey and New York; the world's busiest airport 
system of JFK, LaGuardia, and Newark airports; marine terminals and 
ports including Port Newark/Elizabeth and Brooklyn Piers; the largest 
and busiest bus terminal in the Nation, the Port Authority Bus Terminal 
in Manhattan; the sacred ground of the World Trade Center; and most 
relevant to this hearing, the PATH trains.
    The PATH heavy rail rapid transit system serves as the primary 
transit link between Manhattan and neighboring New Jersey urban 
communities and suburban commuter railroads. PATH carries approximately 
244,000 passengers each weekday and is growing; In 2015, PATH carried 
approximately 76.6 million passengers. I have worked the PATH system 
for the last 12 years and during this time, passenger loads have 
increased, trains have become more crowded and threat incidents have 
risen.
    For today's hearing, I would like to highlight two areas that are 
important to fortifying the security of PATH trains: Training and 
resources for police officers and coordination with other agencies.
                         training and resources
    Over the past 3 years, biannual training, which involves active-
shooter and tactical weapons training, pistol re-qualification, legal 
updates, and a host of other important refresher training, has gone 
down from 5 days of training to 2 days of training which directly 
impacts officer readiness.
    In particular, active-shooter and tactical weapons training 
previously entailed a full day of training but has been cut to only a 
few hours. Tactical training involves using specialized weapons and 
equipment to breach doors and ``tac house'' structures that are built 
to simulate rooms within buildings or train cars and mimic active-
shooter and mass-shooting situations. This type of training is more 
important than ever in the aftermath of assault weapons attacks in 
Newtown, CT and Aurora, CO, as well as the recent shootings in Orlando, 
FL, and San Bernadino, CA, which have now become all too frequent.
    To this end, ``heavy weapons'' and ``heavy weapons trained'' 
officers need to be increased throughout the Port Authority facilities, 
along with the number of vehicles that can properly secure these 
weapons.
    Furthermore, the support services provided to our patrol units, 
including the Emergency Service Unit (ESU) and K-9 Unit, have been 
diminished. The ESU provides SWAT, sniper, and specialized response 
capabilities to issues that arise at all Port Authority facilities. ESU 
staffing levels have been cut for budget savings and current ESU 
officers need better refresher training. The Port Authority K-9 unit, 
which covers PATH, the Bus Terminal and the World Trade Center, has 
also suffered.
    Lastly, while the camera systems at PATH have been updated, they 
lack enhancement capability, which can make identifying and 
apprehending suspects difficult. The cameras at the Port Authority 
bridges, tunnels, and Bus Terminal are also outdated when compared to 
readily-available and common technology on the market. With today's 
technological advancements, the Port Authority Police should have been 
able to have a photo of the suspect within minutes to be able to 
broadcast it to all PAPD, NYPD, and MTA PD in proximity to the bus 
terminal. It is worth nothing that the Port Authority has installed 
state-of-the-art cameras on the JFK Air Train and should deploy this 
camera technology to the rest of its facilities. We are still unsure if 
these incidents were pranks or tests of vulnerability by terrorists. 
Either way this is unacceptable.
                        interagency coordination
    The Port Authority Police attend New Jersey Transit Police Transit 
Tools and Tactics Training which is a step in the right direction. 
However, the Port Authority needs to expand this training to more 
officers, or similar training with other departments, to ensure a 
seamless multiagency response to incidents. Further, when we train in 
multiagency drills, the Port Authority staffs the drills at 
significantly higher levels than we staff on a daily basis, making the 
drills less realistic. Thus, multiagency drills should be conducted 
with the regular number of officers assigned during the shift time for 
the drill.
    With regards to interagency communication, the PBA, along with the 
Jersey City Office of Emergency Management, has made numerous requests 
to the Port Authority to install a Mutualink Radio System which allows 
multiagency communications during emergencies. While the system has 
been installed at the PATH Police Desk, our officers are not trained on 
how to use this capability. Training on this system should be made 
available to officers immediately so that in the event of a multi-
agency response, our officers are able to relay information to mutual 
aid forces in order for a seamless and unified response. Mutualink is a 
good communication system that needs to be placed at all Port Authority 
facilities and we need to be trained in how to use it.
    Those seeking to disrupt travel and inflict harm are constantly 
working to identify and exploit vulnerabilities in our system, so we 
must remain vigilant and aggressive in our posture. Our officers also 
patrol the World Trade Center where we witnessed the worst terrorist 
attack in American history, and I know that the men and women who 
patrol and secure this area never want to let another tragedy like this 
happen on our watch. In this regard, the most important actions that 
can be taken to help secure PATH are to increase officer training and 
resources and to continue and enhance interagency coordination among 
the various first responder entities within our region.
    I would request that Members of this committee join me on a visit 
to the PATH facilities, and other important Port Authority 
infrastructure, to inspect these issues first-hand and see what needs 
to be done immediately to address these concerns and properly protect 
the public.
    Thank you again for inviting me to appear before your subcommittee 
and I look forward to answering any questions you may have.

    Mr. Donovan. Thank you for your testimony, Officer.
    Not that we need a reminder of the dangerous times we are 
living in, but as we were all sitting here, two men and a woman 
carrying multiple loaded weapons have just been arrested at the 
New Jersey entrance to the Holland Tunnel.
    So the men and women who work for you are out there 
protecting us as we are sitting here right now. We don't have 
any further detail on it, but thank you for that.
    I would like to, before I ask my questions--and I wanted to 
note that our colleague Congresswoman Watson Coleman had 
another engagement, but she didn't want to leave before your 
testimony was over. It was that important to her.
    Before I ask my questions, I just want to comment, first of 
all, our committee is known as the Committee on Emergency 
Preparedness, Response, and Communications, and so many times, 
the communication part of that gets lost. Many of you spoke 
about how important the communication is.
    Captain, you did. Mr. Sposa, you did about how important in 
your efforts in communicating now compared to where they were 
back in 1993, 1998 are so much more better. So I was certainly 
glad to hear that.
    Also I was very glad to hear that many of your successes 
you share with other agencies. So we are learning from best 
practices of our colleagues. So that was refreshing, too.
    I had two quick questions, and then I am going to yield to 
my friend from New Jersey. One is what can Congress do to help 
you and the members of your various services to do your job 
better? The second thing I want to know is, are you getting 
sufficient information and readily getting the information 
about threats to our rail system?
    So let me open that up to the panel. No. 1, what can we do 
to help you, and No. 2, are you getting the information that 
you need to do your job?
    Mr. Kierce. Thank you, Mr. Chairman.
    Two things. I think, you know, the UASI grant program, I 
know how hard you have fought to keep the dollars coming at the 
current funding levels. I think one thing that would benefit us 
all is a little more flexibility as far as the use of those 
dollars for backfill when it comes to training.
    As Captain Gorman had alluded to, many of the specialized 
training events out there necessitate replacing of on-line 
firefighters and on-line police officers to attend these 
events. Unfortunately, on the budget restrictions today, that 
has greatly been diminished.
    I think many times we have seen that there have been a 
significant amount of UASI dollars remaining at the end of the 
funding cycle, which many times folks like yourself question, 
well, if the money isn't being spent, why do we, you know, keep 
throwing money into the system?
    I think if there was more flexibility as far as allowing 
agencies to utilize some of that funds specific for backfill, 
that would greatly enhance the training capabilities of all the 
first responders in the area.
    As far as the information sharing, I have to say there has 
been great improvements. In Jersey City's case, we have 
representatives assigned to the Joint Terrorism Task Force. I 
coordinate any terrorist events impacting Jersey City, and I 
have to say over the last couple of years, the flow from the 
Federal level down to the local level has greatly increased.
    Mr. Sposa. Chairman, I would echo a lot of the comments of 
Director Kierce. The flexibility assigned to the grant dollars 
that come down would certainly assist in procuring the needed 
things and getting the backfill that is just so important. When 
it comes to----
    Mr. Donovan. May I ask, is like the directive that comes 
down with the grant money is so stringent that you are only 
permitted to use it for certain purposes, and if that was 
expanded and made more flexible, we would get better use out of 
our dollars?
    Mr. Sposa. I think we would, Chairman. Not only if it was 
more flexible, but to allow for the backfill as well, it would 
help. One of the other things that----
    Mr. Donovan. That is not permitted now?
    Mr. Sposa. Correct.
    Mr. Donovan. OK.
    Mr. Sposa. One of the other things that would assist us 
greatly would be breaking down a few of the silos. You know, 
the partners here in Jersey City, we don't have silos. We are 
all a forward-thinking agency, even though we are multiple 
agencies.
    But certainly amongst even the different grant streams 
within UASI, I think there are still silos that exist, whether 
it is firefighters talking to hospitals or hospitals talking to 
public health and different things. So I think a few of those 
silos, breaking them down would be a great help in the region.
    As far as communication with our transit partners, I will 
speak for myself and my agency. We work closely with our 
partners at Port Authority, closely with our partners at New 
Jersey Transit, certainly through the Jersey City Office of 
Management, we have representation with the Joint Terrorism 
Task Force as well with our Federal partners.
    So getting the information that we need is not--is not a 
problem right now. Getting it down to the troops could probably 
be done in a more efficient fashion.
    Mr. Donovan. That is not a problem of classification 
because we have heard from other witnesses at other hearings 
that if you don't have somebody who has clearances, it is hard 
to pass that down. We have to scrub down that information so 
that people with proper clearances can receive that 
information. That is not what you are talking about?
    Mr. Sposa. I think that does play into a little bit. 
Speaking for myself, I have clearances. So I can get 
information that I don't necessarily know what I can release, 
where I sort of err on the side of caution of not releasing 
Classified information versus getting the information to the 
masses. So I will ``dumb it down'' or smooth it out and get out 
a general awareness about a problem rather than say the problem 
is here.
    Mr. Donovan. Thank you.
    Mr. Gorman. Sir, the only thing I would--two things I would 
like to add to my colleagues would be the current grant system 
does not allow for a brick-and-mortar kind of allocation. So 
using grant money, we cannot build a new facility, and we 
believe that that should be reconsidered.
    To have a state-of-the-art--Lieutenant Glenn, my 
department, the EMS department, Jersey City Fire Department has 
a double-wide trailer for our training facility. I don't want 
to say it is an embarrassment because good work comes out of 
that, but we can do better. We go to any place in the State of 
New Jersey and around the country, and they have state-of-the-
art amphitheaters, extrication equipment, trench rescue 
equipment.
    In Task Force One on Lakehurst, we have what is called the 
``rubble pile'' that was built, and that is an incredible 
facility, if you have ever been there. But in Jersey City or in 
something that we can share with Essex County, we should look 
to allocate that money to a brick-and-mortar facility.
    Mr. Donovan. Good recommendation. Thank you. Lieutenant, 
yes?
    Mr. Glenn. Sir, we have had a lot of success being able to 
assign personnel out to the Department of Justice, the 
Department of Homeland Security, Emergency Management. To be 
able to speak to them on a peer-to-peer basis enhances 
information sharing, and that has only come about within the 
past few years, I am happy to say.
    So, but there is a limitation to that, that, of course, 
when you lose personnel to another area, you have to backfill 
those people, which takes time and money.
    Mr. Donovan. Officer.
    Mr. Mollahan. I think speaking about grants is a little 
outside my scope, but the one thing I have noticed is that 
everything always comes down to budget when it comes to 
training. Even if the money is there to budget for the 
training, like my colleagues have said, backfilling those 
people is the reservations that the agency always seems to 
have.
    Mr. Donovan. I mean, you were saying before like if the 
training could be free, but it is costing you manpower, it is 
costing you resources----
    Mr. Mollahan. Because you pulled them for the training.
    Mr. Donovan. Right. To pull them for the training. Grant 
money, as far as any of you know, is not permitted to use for 
that?
    Mr. Kierce. It is specific to a program, Mr. Chairman. For 
instance, if it is an initiative that is coming out through the 
Department of Homeland Security, sometimes they will permit it. 
But the day-to-day training that is required, as Lieutenant 
Glenn and Rick and Captain Gorman had alluded to, it is not 
available.
    For instance, we have one officer in particular was--paid 
for his own way to go to bomb school, and you know, we since 
were able to compensate that and get it done. But I think you 
can have all the equipment in the world, but unless you have 
qualified people to operate that equipment and sustain that 
equipment, it is for naught.
    Mr. Donovan. I yield whatever time I don't have remaining 
to my colleague, Representative Payne.
    Mr. Payne. I thank the Chairman.
    I will ask each of you this question. You know, as I 
stated, mentioned in my opening statement, the attacks in 
Brussels earlier this year really had an impact on me and 
reminded me, reminded all of us--me and all of us the 
vulnerabilities inherent in our surface systems.
    Can you talk about how you had to adjust your operations 
and the communication in the days following those attacks?
    Mr. Kierce. Well, Congressman, in Jersey City, and this 
would come out of Lieutenant Glenn's house, we would do an 
uptick of high uniform presence, particularly members of the 
Emergency Services Unit. There again, it goes back. We still 
have a huge city to police. Our day-time population is over 
500,000 people.
    So there, again, you know, when you have these type of 
events, you really haven't got time to look at the budget and 
deal with it, you know, the effects of the additional manpower. 
You just have to do it.
    I think the public, the perception of the public requires 
it. They have to have a feeling of safety and security, and it 
is incumbent upon us to be able to deliver that service.
    Mr. Sposa. Congressman, I would speak actually prior to the 
Brussels attacks. The attacks in Boston, the bombings in Boston 
is where we really saw an uptick and a change in our response 
modalities on a day-to-day basis. Since then, I have deployed 
nerve agent antidote kits on the bodies of our EMTs and 
paramedics here in Jersey City 24 hours a day, 7 days a week.
    Since the more recent attacks, we have deployed body armor 
to our emergency medical personnel and issue it to them on a 
daily basis. We are in the process right now of deploying 
bleeding control kits to face those type attacks and 
tourniquets and things like that to stop the bleeding to save 
lives in a mass attack or mass shooting or mass bombing event 
or transit event.
    Our roles are changing. The EMS role in particular is 
changing where we were on the sidelines for a while in these 
events, and that is just not the case anymore. The public's 
perception and, quite frankly, what is needed is for us to be 
on the front lines and in that second wave of responders inside 
of a potentially dangerous situation.
    So we went from being on the sidelines to being in the 
front lines, and the equipment needed to do so is much 
different. A stethoscope won't protect you inside an active-
shooter event, but a bulletproof vest will. So we are changing 
every day. In fact, we are in the process right now of working 
with our partners to go to the next level and become part of 
that wave.
    Mr. Payne. Captain Gorman.
    Mr. Gorman. I think you wanted to see the communication. 
Our situational awareness comes from many, many things. 
Director Kierce and I, we share an office, and we monitor all 
the radios. We have become what you would call a news junkie, 
and we listen to everything.
    Even an inflection in a voice. Now I know Lieutenant Glenn 
very well. We grew up together. If I hear stress in his voice 
on the radio, I know something is not right, and we respond to 
that.
    That is the interpersonal relationships that we have, and 
then we have phone calls. New Jersey Transit OEM, they call me 
all the time with Hudson light rail problems, and we start to 
say what do you have on your camera? What if we look at our 
camera system?
    In fact, New Jersey Transit is in our office as often as 
they are in their own, getting video surveillance for crime 
follow-ups. So that is what we get. But the cell phones. The 
cell phones and the media, that is where we get a lot of our 
information.
    But I have that in the office. The guys responding don't 
have the luxury of having information. They have to go in 
harm's way. As Rick said, they are no longer watching. They no 
longer have the ability to wait for police and ESU to secure a 
scene before we have to go in.
    By virtue of our job, we have to go in and investigate. We 
have run active-shooter drills in Jersey City, and a lot of the 
scenarios have brought down first responding EMS and fire 
crews. Once you lose that command-and-control at a local level 
on a single unit, it complicates your problem.
    I would think that trying to get something as a computer-
aided dispatch out to the guys to get updated information, to 
get response, better response information prior to arrival, I 
think that would help with our interoperability and our 
communications.
    Moving forward, how do we respond to this? Even tomorrow, 
we are going up to Morris County to deal with a Fire 
subcommittee on how to deal with active shooters. Now that also 
is going to take a lot of the groundwork that we have learned 
in looking for secondary devices when we respond to surface 
incidents. So a lot of the different trainings that we have 
over the last 20 years is really starting to coalesce.
    Then it goes back to the training. We have to release the 
people to get the training, but we can't afford to do it. So 
there are some changes that need to be made.
    Mr. Payne. To your point, I know that you are familiar with 
my work around interoperability.
    Mr. Gorman. Absolutely, sir.
    Mr. Payne. The whole question of that communication, and we 
continue to try to strive to give you the resources and the 
equipment you need in order to do this quickly and safely for 
the community and yourselves as well. I have even been 
approached in terms of trying to help Hudson County get a 
frequency that all of you can use to that end, and I am still 
working on it.
    So, but most of my work has been around interoperability 
question and understand what it means to you in these times of 
response. So, Lieutenant Glenn.
    Mr. Glenn. Sir, I would just like to add that we have been 
very proactive on the police side of the service in deploying 
those interoperable radios, using the frequencies given to us 
in the spectrum, and we are very privileged to have that 
opportunity.
    Mr. Mollahan. As far as the Port Authority, specifically 
PATH, anytime there is an attack or after the attack, response 
is usually pretty strong. We deploy a lot of our SOD units, you 
know, ESU, canine, commercial vehicle inspection unit. The 
issue is in between attacks, we tend to get very lackadaisical.
    So you have mentioned, you know, how we react after an 
attack such as Brussels. Our response after the attack is 
usually pretty good. It is in between attacks where we are most 
vulnerable.
    Mr. Payne. You know, since we are on the--it seems like it 
has come up a couple of times and, naturally, because of the, 
you know, the incident that we had last weekend in Orlando, you 
know, guns can be used to breach security at soft targets to 
inflict great harm to innocent Americans. So it is critical 
that we are able to thwart naturally those kind of events and 
respond to them.
    I am not sure, but your agencies have been dealing with 
scenarios involving active shooters. I believe you have 
mentioned you are doing one tomorrow.
    Mr. Gorman. Yes, sir.
    Mr. Payne. So how much has that grown over the last year or 
2 in light of what we have seen in South Carolina and San 
Bernardino and the myriad of issues that we----
    Mr. Kierce. Well, Congressman, I sit on the UASI executive 
board for Newark and Jersey City, which also oversees the seven 
contiguous counties, which in our case represent approximately 
4.3 million people, almost, if not more than half of the 
population of the State of New Jersey. It is a severe target-
rich environment.
    For fiscal year 2015, we dedicated specific funding to 
training and equipping our various first responders in active-
shooter operations. In Jersey City, we have undertaken a 
significant--conducted a significant amount of training both in 
the public and private sector.
    As Lieutenant Glenn alluded to, we recently conducted an 
active-shooter drill here on campus, and to say the least, it 
is an eye-opening experience. I think the days--in my 
experience, 30 years as a Jersey City police officer, the days 
of responding to a call like that and waiting for the 
specialized units to arrive is long gone. You know, the mindset 
is now is to engage the actor and neutralize him and then, you 
know, work on getting the injured and sick and, unfortunately, 
killed out of there.
    I hope that more money will be coming through the system. 
We had recently just purchased all of the IFAK kits for our 
police officers. We will be training them, and they will be 
issued and carried. We are working with Rick to buy them the 
bulletproof vests that they need.
    Then after that, we are moving toward our fire service. 
What we are looking to do here is to engage all of our first 
responders in an active-shooter situation. The years of them 
and us is no longer here. It is one operation to combat these 
types of events.
    Mr. Sposa. Congressman, I would echo Director Kierce's 
statements in that it is a partnership unlike any I have ever 
seen, and it is a necessary partnership. The recent events just 
underline that need.
    These events aren't going away, and we need to be prepared 
for them, and the way to save lives is to work together to have 
the right equipment in the right hands at the right time. We 
are doing that in this region.
    Mr. Gorman. Yes, I would concur with my colleagues. It is 
an eye-opening experience. When I was hired, I didn't suspect I 
would be fitted for a bulletproof vest to put fires out, but 
this world has changed, and so do we. Our tactics have to 
change as well.
    We will work on this committee tomorrow, and we will come 
up with a solution to keep our members safe in the fire 
service, our brothers and sisters in other agencies, and our 
citizens. So we will--we have a lot of work to do tomorrow.
    Mr. Payne. Thank you. Vinny.
    Mr. Glenn. Sir, I could say first-hand that not only has 
the frequency of our active-shooter drills increased maybe even 
three-fold from just 10 years ago, but perhaps even more 
importantly, there has been a large increase in the 
participants and the partners that we work with at these 
drills.
    Mr. Mollahan. Our drills shifted a little bit. We used to 
do a lot of active-shooter within the department. That has 
decreased. We now do more interagency drills. So to say if our 
drilling has gone up or gone down, it has probably stayed about 
the same. It has just kind-of shifted in how we do it.
    Mr. Payne. Thank you. Well, I appreciate all the witnesses' 
testimony and answers today. We really appreciate it.
    Mr. Donovan. Absolutely. I would like to also thank our 
witnesses not only for their testimony, but for your service to 
our communities particularly because the purpose of this 
committee are commuters, and I would also like to thank our 
members of the panel for their questions.
    The Members of the subcommittee may have additional 
questions for each of you, and we ask that you respond to those 
in writing. The hearing record will remain open for 10 days.
    This subcommittee stands adjourned.
    [Whereupon, at 12:45 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
